i

Filed 8/21/19 P. v. Davis CA4/1
NOT TO BE PUBLISHED IN OFFICIAL
REPORTS
California Rules of Court, rule 8.1115(a),
prohibits courts and parties from citing or relying
on opinions not certified for publication or ordered
published, except as specified by rule 8.1115(b).
This opinion has not been certified for publication
or ordered published for purposes of rule 8.1115.
COURT OF APPEAL, FOURTH APPELLATE
DISTRICT
DIVISION ONE
STATE OF CALIFORNIA
THE PEOPLE,
Plaintiff and Respondent,
v.
GAVIN B. DAVIS,
Defendant and Appellant.
D074186
(Super. Ct. Nos. SCD266332,

SCD273043)

APPEAL from a judgment of the Superior
Court of San Diego County, Timothy R. Walsh,
Judge. Affirmed.
John Lanahan for Defendant and
Appellant.
Xavier Becerra, Attorney General, Gerald
A. Engler, Chief Assistant Attorney General,
Julie L. Garland, Assistant Attorney General,
APPENDIX A

2a
Charles C. Ragland, Craig H. Russell and Scott
Taylor, Deputy Attorneys General, for Plaintiff
and Respondent.
[Petitioner] appeals the denial of his
motion to withdraw his guilty plea. He claims
that he was not advised about and did not
understand his constitutional rights; his plea was
involuntary because he made it in exchange for a
promise that he would be released on bail; there
was an insufficient factual basis for the crime of
vandalism; and he was not advised of the
collateral consequence of the possible loss of his
We conclude none of
professional license.
[Petitioner’s] arguments has merit. We therefore
affirm.

FACTUAL AND PROCEDURAL BACKGROUND
In two consolidated cases (SCD266332 and
SCD267655), [Petitioner] was charged with one
count of vandalism over $400 (Pen. Code, § 594,
subds. (a), (b)(1)); one count of resisting an officer
(§ 148, subd. (a)(1)); ten counts of disobeying a
court order to prevent domestic violence (§ 273.6,
subd. (a)); six counts of willful disobedience of a
process and order lawfully issued by a court (§
166, subd. (a)(4)); and stalking (§ 646.9, subd. (a)).
On October 5, 2016, the court held a
hearing regarding [Petitioner's bail status.
[Petitioner]'s wife testified that [Petitioner] was
threatening her and that [Petitioner] left a
voicemail threatening to kill her father, The
court found that [Petitioner] violated court orders,
failed to appear at a forensic evaluation, and had
threatened a protected person with great bodily
injury. The court revoked [Petitioner's bail and
remanded him into custody. [Petitioner] was

3a
later released from custody after bail was
reinstated.
On April 17, 2017, [Petitioner] failed to
appear in court and the court issued a bench
The prosecutor filed another case
warrant.
against [Petitioner], alleging his failure to appear.
On July 6, 2017, the bail forfeiture order was set
aside, and [Petitioner] was released from custody.
On October 10, 2017, [Petitioner] failed to appear
in court after the trial court denied a motion to
continue his trial. The court forfeited bail and
issued another bench warrant. [Petitioner] was
arrested and remained in custody until he pled
guilty on April 23, 2018.
At [Petitioner's change of plea hearing,
[Petitioner] indicated to the court that he wished
to change his plea. After swearing in [Petitioner],
the court asked [Petitioner] whether he had read
and understood all the plea forms. [Petitioner]
admitted that his attorney "went through the
forms" with him, including reading them to him.
The court then asked [Petitioner] if he
"thoroughly discuss [ed] all the contents with" his
attorney. [Petitioner] responded that he believed
his conversations with his attorney were
privileged. The court pressed [Petitioner] on this
point, explaining that it needed to know whether
[Petitioner] thoroughly discussed the forms with
his attorney, not the substance of the
conversation. [Petitioner] told the court that his
attorney "answered my question[.]"
The court then discussed portions of the
change of plea forms, asking if [Petitioner]
understood what he was pleading guilty to.
[Petitioner] responded in the affirmative. The
court explained that the forms stated that in

4a
exchange for his guilty plea, [Petitioner] was
agreeing to probation. And if he successfully
completed probation, then the felony vandalism
count would be reduced to a misdemeanor and the
other charges would be dismissed upon a motion
by [Petitioner]. [Petitioner] indicated that his
attorney had advised him consistent with what
the court stated. The court asked [Petitioner] if
there had been any other promises made to him
or any threats made against him that caused him
to plead guilty. [Petitioner] stated there had been
no threats, but informed the court that he "was
promised a return to my liberty today, had bail
review pushed off three times." The court then
added to the plea agreement that [Petitioner] was
to be released after the change of plea hearing
pending sentencing.
The court and [Petitioner] then engaged in
the following exchange:
"THE COURT:
All right. On both forms, do
you understand all of your constitutional rights to
a jury trial?
"[[Petitioner]]:
Your honor, I understand the
rights by the California Constitution and the
jurisdiction of this court.
"THE COURT:
I'm asking you if you
understand all of the rights as indicated that you
have to a jury trial on your forms.
"[[Petitioner]]:

Yes, you[r] honor.

5a
"THE COURT:
And do you give up those
rights to a jury trial and all of the related rights
in order to plead guilty at this time?
"[[Petitioner]]:
In the state of California, San
Diego County, yes, your honor."
The court later asked [Petitioner] if he
understood all of the other potential consequences
of his plea as indicated on the forms. [Petitioner]
said that he did "to the best of my ability and
resources." [Petitioner] then pled guilty to five
counts, including felony vandalism.
Regarding
the felony vandalism offense, the court and
[Petitioner] engaged in the following exchange:
Okay.
And then on case
"THE COURT:
ending 655, it says that on July 1st of 2015, you
damaged property not your own in value in excess
of $400, count one, on March 13th of 2016 and
on—is it January?
"[[Petitioner]]:

Those dates are incorrect.

"THE COURT:
these dates.

Okay. Well, it's on or around

There was only one incident
"[[Petitioner]]:
and it was my own real property."
On June 7, 2018, [Petitioner] appeared at
his sentencing hearing.
There, his counsel
indicated that [Petitioner] wanted to withdraw
his guilty plea. In response to questioning by the
court, [Petitioner's counsel represented that he
was prepared to go forward with sentencing and

6a
did not agree with [Petitioner] about withdrawing
his guilty plea. [Petitioner], however, attempted
to address the court, which lead to the following
discussion among the court, [Petitioner], and
[Petitioner]'s trial counsel:
"THE COURT:
Okay. Mr. [Petitioner], you
know, I know you want to address the court and
are anxious to address the court. You have no
right, on this issue, to address the court as you're
being represented by your lawyer.
"[[Petitioner]]:
your honor.

I'm represented horizontally,

There's no such thing.
[1f]
"THE COURT:
And as such, you've relayed to your attorney the
basis for which you might want to withdraw your
plea. He has an ethical obligation as an attorney,
and because there's ethics that apply to his
practice of law, to evaluate that. He cannot file
frivolous motions legally or ethically, and has,
based on his conversations with you, determined
there's no basis for which you can withdraw your
plea.
"[[Petitioner]]:
discussed it.

I object to that. We have not

Okay. This is the deal. You
"THE COURT:
can't object to it. You're not a lawyer. You're not
representing yourself in this case. Your lawyer's
representing yourself in this case. Your lawyer's
representing yourself—you. So this idea that you
feel like somehow you are representing yourself
along with your lawyer, there's no such thing. So

7a
at least in the capacity that you're here, you're
not doing—I guess there is such a thing, but it's
not set up that way. []f] So do you want to be
heard on this issue, defense, or do you want to
proceed with sentencing?
"[[Petitioner]'s counsel]: Are you referring to me,
your honor? Excuse me.
"THE COURT:

Yes.

"[[Petitioner]'s counsel]: I'm prepared to proceed."
After the prosecutor stated he did not need
to be heard on this issue, the court sentenced
[Petitioner] to 365 days in local custody and three
years-probation.
[Petitioner] obtained a certificate of
probable cause and filed a timely notice of appeal.
DISCUSSION
A guilty plea must be knowing, voluntary,
and intelligent under the totality of the
(People v. Farwell (2018) 5
circumstances.
Cal.5th 295, 301-302.) Upon a showing of good
cause, the court may allow a defendant to
withdraw a plea of guilty at any time before
judgment. (§ 1018.) To establish good cause, it
must be shown that defendant was operating
under mistake, ignorance, or any other factor
overcoming the exercise of his free judgment.
(Ibid.; People v. Sandoval (2006) 140 Cal.App.4th
The defendant must also show
111, 123.)
prejudice in that he would not have accepted the
plea bargain had it not been for the error. (People
v. Breslin (2012) 205 Cal.App.4th 1409, 1416.) On
appeal, we affirm the trial court's ruling on a

8a
motion to withdraw the plea unless the defendant
shows a clear abuse of the trial court's discretion.
(People v. Fairbank (1997) 16 Cal.4th 1223, 1254.)
In evaluating challenges to the court's ruling, we
"must adopt the trial court's factual findings if
(Ibid.;
substantial evidence supports them."
Breslin, at p. 1416.) We are bound by the trial
court's credibility determinations. (See Fairbank,
at p. 1254.)
Here, [Petitioner] claims the trial court
abused its discretion in denying his motion to
withdraw his guilty plea because: (1) the record
does not indicate that he knowingly waived his
constitutional rights, (2) the plea was made in
exchange for a promise that he would be released
on bail, (3) there was an insufficient factual basis
for the crime of vandalism, and (4) [Petitioner]
was not advised of the collateral consequence of
the loss of a professional license. We conclude
that these arguments lack merit.
[Petitioner] first argues that he did not
knowingly waive his constitutional rights. To this
end, he points out that during his change of plea
hearing, the court only explicitly identified the
right to trial by jury. He therefore claims the
record does not indicate that he was apprised of
his constitutional rights and then knowingly
waived them. We disagree.
There is no requirement for a talismanic
recitation of the right being waived. (People v.
Howard (1992) 1 Cal.4th 1132, 1180 (Howard).)
Instead, the knowing nature of the waiver must
be determined from the totality of the
circumstances. (People v. Davis (2009) 46 Cal.4th
539, 586; People v. Mosby (2004) 33 Cal.4th 353,
361 (Mosby); Howard, at pp. 1177-1178.) Explicit

9a
advisal of the right being waived is not necessary
for a knowing and voluntary plea. (Howard, at
pp. 1177-1178 [plea valid even though no explicit
advisal of constitutional right].)
Further, the court may rely on a validly
executed waiver form as a sufficient advisal of
rights. {People v. Cisneros-Ramirez (2018) 29
Cal.App.5th 393, 402-403; Mosby, supra, 33
Cal.4th at pp. 360-361.) The court need not
specifically review the waiver with the defendant
when both the "defendant and his attorney have
signed a waiver form, both have attested to
voluntary
knowing
and
defendant's
relinquishment of his rights, and the trial court's
examination of the defendant and his attorney
raised no questions regarding the defendant's
comprehension of his rights or the consequences
of his plea." (Cisneros-Ramirez, at p. 402; People
v. Panizzon (1996) 13 Cal.4th 68, 83-84.)
We independently examine the entire
record to determine whether the defendant
knowingly and voluntarily waived his rights.
(.People v. Elliott (2012) 53 Cal.4th 535, 592.)
[Petitioner]'s waiver of his constitutional
The
rights was intelligent and voluntary,
language of the change of plea form was clear.
The form stated that [Petitioner] had "the right to
a speedy and public trial by jury[,]" "the right to
confront and cross-examine all the witnesses
against" him, "the right to remain silent [,]" and
"the right to present evidence in [his] behalf."
After each recitation of the specific right, the form
indicated, in bold, "I now give up this right" with
a box for [Petitioner]'s initials.
[Petitioner]
initialed every box and then signed the form

10a
The form also
under penalty of perjury,
contained the following paragraph:
"I, the attorney for the defendant in the
above-entitled case, personally read and
explained to the defendant the entire contents of
this plea form and any addendum thereto, I
discussed all charges and possible defenses with
the defendant, and the consequences of this plea.
I have asked the defendant about his/her
immigration status, advised defendant of the
immigration consequences of this plea to the best
of my ability, and advised defendant of the right
to additional time to discuss this matter with an
immigration attorney. I personally observed the
defendant fill in and initial each item, or read and
initial each item to acknowledge his/her
I observed the
understanding and waivers,
defendant date and sign this form and any
addendum. I concur in the defendant's plea and
waiver of constitutional rights."
[Petitioner]'s attorney signed the form after
that paragraph.
In addition to being advised of his
constitutional rights in writing, the court asked
[Petitioner] if he understood his constitutional
rights and whether he was waiving them.
[Petitioner] answered both questions in the
affirmative. Further, [Petitioner] does not argue
that he did not read or understand the change of
plea form. Nor is there any indication in the
record that [Petitioner] suffered from some
impairment that limited his ability to understand
what he was signing or agreeing to. In contrast,
the record indicates that [Petitioner] was an Ivy
League educated person with extensive business
experience. Against this backdrop, the totality of

11a
the circumstances
strongly supports the
conclusion that [Petitioner] knowingly and
intelligently waived his constitutional rights.
(See People v. Davis, supra, 46 Cal.4th at p. 586;
Mosby, supra, 33 Cal.4th at p. 361; Howard,
supra, 1 Cal.4th atpp. 1177-1178.)
[Petitioner] next argues his plea was not
voluntary because he claims he pled guilty based
on the promise that he would be released on bail
if he did so. He claims that the "real" reason he
pled guilty was to be released on bail. [Petitioner]
argues that he tried unsuccessfully to get a bail
review calendared three times in six months, and
thus, he believed pleading guilty was the only
way he would be released from jail. We disagree.
During the change of plea hearing,
[Petitioner] indicated that the prosecutor had
agreed that he was to be released, after pleading
guilty, "pending sentencing." The court then
added this agreement to the change of plea form.
Moreover, [Petitioner] indicated to the court that
he was not pleading guilty in response to any
threats.
And, on the change of plea form,
[Petitioner] initialed in the box next to the
statement, "I am entering my plea freely and
voluntarily, without fear or threat to me or
anyone closely related to me." Based on the
prosecution's offer to release [Petitioner] after he
pled guilty pending sentencing, [Petitioner]
maintains that his plea was involuntary under
People v. Collins (2001) 26 Cal.4th 297 (Collins).
In Collins, after the trial court learned the
defendant might waive a jury trial, the court
informed defense counsel" 'there might well be a
benefit in it,' because 'just by having waived jury'
and thus not taking two weeks' time to try the

12a
case, 'that has some effect on the court.' "
(Collins, supra, 26 Cal.4th at p. 309.) The court
then informed the defendant he would receive a
benefit of an unspecified nature if he waived his
right to a jury trial. The court secured the
defendant's response that he understood the
court's comments. (Ibid.)
The California Supreme Court observed
"[t]he trial court, by following that procedure
while announcing its intention to bestow some
form of benefit in exchange for defendant's waiver
of that fundamental constitutional right, acted in
a manner that was at odds with its judicial
obligation to remain neutral and detached in
evaluating the voluntariness of the waiver."
(Collins, supra, 26 Cal.4th at p. 309.) The court
determined "[t]he form of the trial court's
negotiation with
defendant
presented
a
'substantial danger of unintentional coercion.' "
(Ibid.) The court further noted the waiver of the
fundamental right of a jury trial is not by itself
subject to negotiation by the trial court, "In
effect, the trial court offered to reward defendant
for refraining from the exercise of a constitutional
right." (Ibid.) The court concluded the error was
structural error, not subject to harmless error
analysis and compelled reversal of the judgment.
(Id. at pp. 310-313.)
In Collins, unlike in the present case, the
trial court offered the defendant a vague promise
of leniency to induce a waiver of the defendant's
right to a jury trial to save judicial resources.
(Collins, supra, 26 Cal.4th at pp. 300, 309, 312.)
Here, the trial court did not make any offer or
promise of leniency to entice [Petitioner] to plead
guilty. Glossing over this distinction, [Petitioner]

13a
focuses on the prosecutor's offer to release him
from custody pending sentencing. [Petitioner]
now claims that he only agreed to this offer
because he believed it was the only way he would
be released. To this end, he tries to paint his
three unsuccessful attempts to schedule hail
review as a nefarious plot to coerce him to plead
guilty. However, there is no support in the record
for this assertion. [Petitioner] points to nothing
in the record explaining why his attempts to
schedule a bail review were not successful.
Additionally, [Petitioner]'s argument ignores his
role in the court revoking his bail: he did not
comply with certain court orders, including failing
to appear in court. In short, the prosecutor's offer
to allow [Petitioner] to be released from custody
pending sentencing is nothing like the trial
court's vague offer of leniency our high court
found improper in Collins, supra, 26 Cal.4th 297.
Here, [Petitioner] was represented by
counsel and knew of the charges against him.
There is no indication in the record that his plea
was induced by harassment, threats of physical
He
harm, coercion, or misrepresentation,
admitted as much during his change of plea
hearing and when he initialed and signed his
change of plea form. The prosecutor's offer to
allow [Petitioner] to be released from custody
after the change of plea hearing did not render
[Petitioner]'s guilty plea involuntary.
[Petitioner] also contends his plea should
be vacated because the trial court failed to
establish an adequate factual basis for the plea.
We disagree.
"[T]he trial court is required by statute to
conduct an inquiry to establish the existence of a

14a
factual basis for a conditional plea of guilty or no
contest." (People v. Voit (2011) 200 Cal.App.4th
1353, 1365 (Voit).) " 'While there is no federal
constitutional requirement for this factual basis
inquiry, the statutory mandate of section 1192.5
helps ensure that the "constitutional standards of
voluntariness
and intelligence
are
met."
[Citation.]' [Citation.] The inquiry also protects
against an innocent person entering a guilty plea
and creates a record against possible appellate or
collateral attack. [Citation.]" (Voit, at p. 1365, fn.
omitted.)
"However, a plea of guilty . . . waives an
appellate claim of the nature 'there is insufficient
evidence supporting my plea.' " (Voit, supra, 200
Cal.App.4th at p. 1365.) "[A] plea of guilty . . .
forecloses an appellate challenge that the plea
lacks a factual basis. Section 1192.5 requires a
factual inquiry by the trial court, not by the
appellate court. Particularly where a defendant
not only personally pleads . . . but also personally
or through counsel concedes the existence of a
factual basis for his or her pleas . . . ." (Voit, at p.
1366.) A defendant is estopped from arguing on
appeal what he has already conceded below, that
there is a factual basis for his plea. (Id. at p.
1359.)
If f
As to the merits, the plea is deemed to
constitute a judicial admission of every element of
the offense charged. [Citation.] Indeed, it serves
as a stipulation that the People need introduce no
proof whatever to support the accusation: the plea
ipso facto supplies both evidence and verdict.
[Citation.] t l» (Voit, supra, 200 Cal.App.4th at p.
1363.) ft fA guilty plea "admits every element of
the crime charged" [citation] and "is the 'legal

15a
equivalent' of a 'verdict' [citation] and is
'tantamount' to a 'finding' [citations]" [citation].'
[Citation.]" (Id. at p. 1364.) "' "A plea of guilty is
more than a confession which admits that the
accused did various acts; it is itself a conviction;
nothing remains but to give judgment and
determine punishment." [Citation.]' " (Id. at pp.
1363-1364.) "Issues concerning the defendant's
guilt or innocence are not cognizable on appeal
from a guilty plea. [Citations.] By admitting
guilt a defendant waives an appellate challenge to
the sufficiency of the evidence of guilt.
[Citations.]" (Id. at p. 1364.)
"It is our position that an appellate court
should not engage in a substantive review of
whether there is an evidentiary or factual basis
for a defendant's . . . plea simply because the
defendant contradicts on appeal what he
admitted in the trial court. The doctrine of
judicial estoppel appears apt." (Voit, supra, 200
Cal.App.4th at p. 1370 [declining to review the
preliminary hearing transcript and police report,
to which defendant stipulated would provide the
factual basis for the plea, to determine whether
there was sufficient evidence to support the
crimes to which defendant pled no contest];
People v. Nitschmann (2010) 182 Cal.App.4th 705,
709 ["Appellant is estopped from attacking a
procedure to find a factual basis for the plea that
he agreed could be utilized."]; People v. Borland
(1996) 50 Cal.App.4th 124, 127 ["Appellant may
not enter into a negotiated disposition for an
offense with a specified charging date, enjoy the
fruits thereof, and then challenge the factual
basis for the plea on appeal."].)

16a
The court in Voit recognized that the court
in People v. Marlin (2004) 124 Cal.App.4th 559,
cited by [Petitioner] in his reply brief, provided
contrary authority. However, the Voit court
rejected Marlin on several bases: Marlin was
dictum because the People did not contend the
appellate court was precluded from considering
the factual basis for the plea, the issue was not
contested, there was no attempt to distinguish
authority holding that the sufficiency of the
evidence of guilt was cognizable on an appeal, and
that Marlin’s determination that holding
otherwise would make the issue unreviewable
was inconsequential considering the same could
be said of any issue which courts have determined
a defendant can waive or forfeit. (Voit, supra, 200
Cal.App.4th at p. 1368.) We agree with the court
in Voit that Marlin consists largely, if not wholly,
of distinguishable dictum and is therefore not
persuasive.
Yet, even if we did reach the merits of
[Petitioner]'s claim, we would find his position not
well taken. [Petitioner] relies entirely on his
exchange with the trial court wherein the court
asked him if he damaged property not his own in
excess of $400, and [Petitioner] responded, "There
was only one incident and it was my own real
property." [Petitioner] ignores the change of plea
form where he initialed a box next to the
admission that he damaged property not his own
in excess of $400. Thus, at most, his statement to
the trial court might be considered a
contradiction of the signed change of plea form.
However, it is clear from the record that
[Petitioner's statement is not inconsistent with
the vandalism offense. The prosecution's theory

17a
of the case was that [Petitioner] and his wife
jointly owned the damaged property (their home).
And the probation report indicates that the
vandalism offense was based on [Petitioner]
damaging portions of his home that he owned
Each community property
with his ex-wife,
owner has an equal ownership interest and,
although undivided, one which the criminal law
protects from unilateral nonconsensual damage
or destruction by the other marital partner.
(People v. Kahanic (1987) 196 Cal.App.3d 461,
466.) [Petitioner] may have damaged his "own
real property" but, at the same time, he also
damaged his wife's interest in that property.
Thus, the statement he made during his change
of plea hearing did not negate the factual basis of
the vandalism offense. We therefore are satisfied
that there existed an adequate factual basis for
[Petitioner's guilty plea.
Finally, [Petitioner] claims that the trial
court should have allowed him to withdraw his
guilty plea because he was unaware a felony
conviction might preclude him from renewing his
real estate license. [Petitioner] concedes that a
loss or suspension of his professional license
would be a collateral consequence of his guilty
plea. Thus, he argues his guilty plea should not
stand because he was not advised of a potential
collateral consequence of pleading guilty.
In a guilty plea case, the defendant must
be advised of all direct consequences of conviction.
(Bunnell v. Superior Court (1975) 13 Cal.3d 592,
605.) This requirement relates to the primary
and direct consequences involved in the criminal
case itself and not to secondary, indirect or
collateral consequences. (People v. Gurule (2002)

18a
28 Cal.4th 557, 634; People v. Harty (1985) 173
Cal.App.3d 493, 504.) A consequence is " 'direct' "
if it has a definite, immediate and largely
automatic effect on the range of the defendant's
punishment. (People u. Moore (1998) 69
Cal.App.4th 626, 630.) Direct consequences
include the permissible range of punishment
provided by statute, imposition of a restitution
fine, probation ineligibility, the maximum parole
period, and registration requirements. (Ibid.)
"A collateral consequence is one which does
not 'inexorably follow' from a conviction of the
offense involved in the plea." (People v. Crosby
(1992) 3 Cal.App.4th 1352, 1355.)
Collateral
consequences include the possibility of enhanced
punishment upon a future conviction, the
possibility of probation revocation in another
case, and limitations on the ability to earn
conduct and work credits while in prison. (People
v. Moore, supra, 69 Cal.App.4th at p. 630.)
Here, [Petitioner] acknowledges the loss of
his real estate license would be a collateral
consequence of his guilty plea. We agree. The
California Real Estate Commissioner may
suspend, revoke, or delay the renewal of a license
of a real estate licensee who has entered a plea of
guilty of "a felony, or a crime substantially
related to qualifications, functions, or duties of a
real estate licensee . . . ." (Bus. & Prof. Code, §
10177, subd. (b)(1).) [Petitioner] concedes that it
is unknown whether his conviction would delay
the renewal of his license. Further, [Petitioner]
cannot point to any authority that would require
that he be advised of the potential of losing a
professional license before a guilty plea can be
knowing and intelligent. He cites Padilla v.

19a
Kentucky (2010) 559 U.S. 356 (.Padilla) in arguing
that the effect of losing his professional license
and thus losing his primary means of earning a
livelihood is so severe that the direct/collateral
consequences distinction does not matter. That
case does not help [Petitioner].
In Padilla, the court determined that a
criminal defense counsel's Sixth Amendment
obligation include properly advising his or her
client of the immigration consequences of a guilty
or no contest plea. The court recognized that
federal immigration law is often complex; thus, at
times, deportation as a consequence of a
conviction is neither clear nor certain. In those
cases, the court concluded, the most the Sixth
Amendment may require of defense counsel
concerning immigration consequences is a
warning that a criminal conviction may have
{Padilla,
adverse immigration consequences.
supra, 559 U.S. at p. 369.) However, when, as
was the case in Padilla, federal immigration law
specifies in "succinct, clear, and explicit" terms
that a conviction will result in deportation, the
Sixth Amendment requires the criminal defense
attorney to accurately advise his or her client of
that consequence before the client enters a guilty
plea. (Padilla, at pp. 368-369.) [Petitioner] is not
claiming that his attorney did not advise him of
the potential immigration consequences of
pleading guilty.
Instead, he is claiming his
attorney should have advised him of the
possibility that he may lose his real estate license
if he pled guilty. Padilla does not establish any
such requirement.
[Petitioner] also claims his trial counsel
was constitutionally ineffective because he did not

20a
advise him of the possibility that he would not be
able to renew his real estate license if he pled
guilty. To show that trial counsel's performance
was constitutionally defective, an appellant must
prove: (1) counsel's performance fell below the
standard of reasonableness, and (2) the "deficient
performance prejudiced the defense." {Strickland
v. Washington (1984) 466 U.S. 668, 687-688.)
Competency is presumed unless the record
affirmatively excludes a rational basis for trial
counsel's choice. (People v. Ray (1996) 13 Cal.4th
313, 349; People v. Musselwhite (1998) 17 Cal.4th
1216, 1260.)
An appellate court generally cannot fairly
evaluate counsel's performance at trial based on a
silent record. {People v. Mendoza Tello (1997) 15
Cal.4th 264, 266-267.) In many instances, like
here, evaluation of a claim of ineffective
assistance of counsel will have to await a petition
for habeas corpus, should the defendant believe
there is a viable claim that can be pursued.
{Ibid.) [Petitioner] has not provided any authority
establishing that an attorney has the obligation
to advise his or her client that the client may lose
or not be able to renew a professional license if
the client pleads guilty to a felony. Moreover,
there is no evidence in the record establishing
that the giving of such advice was the custom,
habit, or practice of defense counsel in San Diego
that
conclude
Accordingly,
we
county.
[Petitioner]'s claim of ineffective counsel is
without merit.
DISPOSITION
The judgment is affirmed.

21a
HUFFMAN, Acting P. J.
WE CONCUR:
O’ROURKE, J.
DATO, J.

lb
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF SAN DIEGO
CENTRAL DIVISION, COUNTY
COURTHOUSE, 220 W. BROADWAY, SAN
DIEGO, CA 92101
FOR COURT USE ONLY
FILED
June 07, 2018
15:29:41
PEOPLE OF THE STATE OF CALIFORNIA,
Plaintiff
Vs.

GAVIN DAVIS
Defendant
PROB ID #21411501
P.O. NAME: CHRISTINE FORD
CASE # SCD266332
CII # A25398240
WORK LOCATION: Hall of Justice
DA # ADZ96401
BK# 16113545A
MAIL STATION: C-96
DEPT# 1102

ORDER GRANTING FORMAL PROBATION
The defendant having been convicted of violating
&
PC273.6(a)
(misd),
PC653M
(misd),
PC166(a)(6), it is ordered that imposition of
sentence be suspended for 3 years, and the
defendant be granted formal probation;

APPENDIX B

2b
The following are the terms and conditions of
probation.
1. COMMITMENT:
a. To Sheriff for 365 day(s), with credit for:
201 local day(s), 200 PC4019 days [2/2], for a total
of 401 day(s) credit for time served.
2. THE DEFENDANT SHALL PAY:
TOTAL DUE $1,623.00, comprised of the
following:
a. FINE of $820 PLUS:
b.
Court
Operations
Assessment*
(PC1465.8) $160.00
Criminal
Conviction Assessment"
c.
(GC70373) $120.00
d. Criminal Justice Admin. Fee (GC29550
et seq.) $154.00
p. Theft Fine (PC1202.5) incl. PA$ 39.00
(LEA SDPD)
r. Restitution Fine (PC1202.4(b)) $300.00 ■
plus 10% (PC1202.4(I) [county collection feel)
$30.00"
s. Probation Revocation Restitution Fine
(PC1202.44)
$300.00
SUSPENDED unless
probation is revoked.
w. All fines and restitution are to be paid to
Probation through Revenue & Recovery of $50 per
month. Payments are to start on 08/07/2018
4. EXTRADITION WAIVER: Deft, waives
extradition and agrees NOT to contest any
extradition to California.

3b
5. PROBATION DEPARTMENT PUBLIC
SERVICE PROGRAM (PSP) / VOLUNTEER
WORK:
c. Complete up to 20 days PSP, if directed
by the P.O.
6. THE DEFENDANT SHALL:
a. Obey all laws. Minor traffic infractions
will not affect probation status.
b. Follow such course of conduct that the
P.O. communicates to defendant.
d. Not knowingly possess a firearm,
ammunition, or deadly weapon.
e. Comply with a curfew if so directed by
the P.O.
f. Have a photo ID card on his/her person
at all times.
h. Provide DNA samples as directed by
Sheriff or P.O. (PC296).
i. Report to the P.O. as directed / within 72
hours of any release from custody. If homeless,
report to the nearest probation office in San Diego
County within 72 hours. Thereafter, report in
person the first day of each month until directed
to do otherwise.
j. Report any change of address or
employment to the P.O. and Revenue & Recovery/
Court Collections within 72 hours.
k. Provide true name, address, and date of
birth if contacted by law enforcement. Report
contact or arrest in writing to the P.O. within 7
days. Include the date of contact/arrest, charges,
if any, and the name of the law enforcement
agency.

4b
l. Obtain: P.O.'s consent before leaving San
Diego county, court’s and P.O.'s written consent
before moving out of state.
m. Be permitted to travel to or reside in
Texas if approved by interstate compact.
n. Submit person, vehicle, residence,
property, personal effects, computers, and
recordable media including electronic devices to
search at any time with or without a warrant,
and with or without reasonable cause, when
required by P.O. or law enforcement officer.
full-time
maintain
Seek
and
o.
employment, schooling, or a full-time combination
thereof if directed by the P.O.
r. Participate and comply with any
assessment program if directed by the P.O.
s. Any contraband seized by Probation
Dept, to be destroyed or retained by Probation for
education purposes, at their discretion.
CONDITIONS LISTED IN SECTIONS 7, 8, 9, 10,
11, 12, AND 13 ARE NORMALLY IMPOSED IN
CASES INVOLVING SPECIFIED OFFENSES,
E.G., DRUGS, ALCOHOL, ETC., BUT MAY BE
IMPOSED FOR OTHER OFFENSES IF
REASONABLE AND LAWFUL.
THERAPY,
TREATMENT,
7.
COUNSELING:
a. Take psychotropic medications if
prescribed/ ordered by doctor.
b. Participate in treatment, therapy,
counseling, or other course of conduct as
suggested by validated assessment tests.

5b
c. Provide written authorization for the
P.O. to receive progress and compliance reports
from any medical/mental health care provider, or
other treatment provider rendering treatment /
services per court order under the terms of this
grant of probation.
d. Attend and successfully complete
Psychiatric Substance AS Abuse-IF____________
_ counseling program approved by the P.O., as / if
directed by the P.O. Authorize the counselor to
provide progress reports to the probation officer
or court when requested; all costs to be borne by
defendant.
8. ALCOHOL CONDITIONS:
b. Do not knowingly use or possess alcohol
if directed by the P.O.
c. Attend 'Self-help' meetings if directed by
the P.O.
f. Submit to any chemical test of blood, breath, or
urine to determine blood alcohol content and
authorize release of results to P.O. or the court
whenever requested by the P.O., a law
enforcement officer, or the court ordered
treatment program,
h. Do not be in places, except in the course
of employment, where you know, or a P.O. or
other law enforcement officer informs you, that
alcohol is the main item for sale.
9. DRUG CONDITIONS:
a. Complete a program of residential
treatment and aftercare if directed by the
probation officer,
c. Do not knowingly use or possess any
controlled substance without a valid prescription

6b
and submit a valid sample for testing for the use
of controlled substances/alcohol when required by
the P.O., law enforcement officer, or treatment
provider
10. VIOLENCE AND SEX CONDITIONS:
a. Do not unlawfully use force, threats, or
violence on another person.
c. Submit to service and comply with any
order of the Superior Court, including restraining
orders.
d. Comply with any protective order issued
pursuant to PC136.2 / PC1203.097(a)(2).
g. Obtain P.O. approval as to ■ residence ■
employment.
j. Do not knowingly contact or attempt to
annoy, or molest, either directly or
contact
indirectly Lindsay Unruh, Greg Unn,h, Melissa
Johnson (McArthur).
11.
CONTINUOUS
ELECTRONIC
MONITORING/GPS:
a. Participate in Global Positioning System
(GPS) monitoring Das mandated by PC1202.8(b)
■ if directed by a P.O.
b. Comply with all zone and curfew
restrictions, GPS charging requirements and
equipment care if participation directed by P.O.
c. Reimburse the Probation Department$
2,500 (up to $2500.00) to cover replacement costs
in the event that the GPS equipment is not
returned, is lost, stolen, or damaged in any
manner.
12. OTHER CONDITIONS:

7b
f. Do not knowingly own, transport, sell, or
possess any weapon, firearm, replica firearm or
weapon, ammunition, or any instrument used as
a weapon.
14. FURTHER CONDITIONS:
a. No marijuana use at all "if’ directed by
PO.

15. ORDER RE PROBATION COSTS:
You are ordered to cooperate with the
probation
officer
or
their
authorized
representative as directed, in the completion of
the financial evaluation required under
PC1203.1b. If it is determined that you have the
present ability to repay the county for all or any
part of the costs of the pre-sentence investigation
and/or costs of probation supervision, the county
will request that a judgment be issued against
you for these amounts. If you do not agree with
the determination, you have a right to a hearing
before the court for a decision on your present
ability. Failure to report and cooperate in the
financial evaluation within 180 days of the date of
this order will be deemed a waiver of your right
to such a hearing, and a civil judgment will be
entered against you for the amount of the funds
expended for the above services. These costs are
presently set at $1,433 for the pre-sentence
investigation and up to $176 per month for
probation supervision. Payment of any costs so
determined shall be to Revenue and Recovery.
Payment is not a condition of probation but
any judgment obtained may be enforced in the
manner of any civil judgment.

8b

17. REPORT
RECOVERY (R&R):

TO

REVENUE

AND

You are ordered to report to R&R within 20
days of the date of this order for a determination
of your present ability to pay the cost of your
court appointed attorney (PC987.8). Revenue and
Recovery has an office at each of the following
locations: Hall of Justice Room 454 330 W.
Broadway San Diego, CA
If it is determined that you have the
present ability to pay all or any part of the costs
incurred, the county will request that a judgment
be issued against you for this amount. If you do
not agree with this determination, you have the
right to a hearing before the court for a decision
on your present ability. Failure to report within
the 20 days will be deemed a waiver of your right
to such a hearing, and a civil judgment will be
entered against you for the amount of costs
incurred. Payment of any costs so determined
shall be to Revenue and Recovery. Payment is not
a condition of probation but any judgment
obtained may be enforced in the manner of any
civil judgment.
REFERRAL TO THE DEPARTMENT OF
REVENUE AND
RECOVERY /
COURT
COLLECTIONS:
Defendant's Address: WITHHELD
Phone Number: (858)876-4346
DOB: [WITHHELD]
In open court on:

June 07, 2018

Timothy Walsh
Judge of the Superior Court

lc
SUPREME COURT
STATE OF CALIFORNIA
THE PEOPLE,
Plaintiff and Respondent,
v.
GAVIN B. DAVIS,
Defendant and Appellant.
S258194
(Fourth Appellate District, Division One,
D074186)
(Super. Ct. Nos. SCD266332, SCD273043)
11/26/2019 Petition for review denied

APPENDIX C

‘V

Id
COURT OF APPEAL, FOURTH APPELLATE
DISTRICT
DIVISION ONE
STATE OF CALIFORNIA
THE PEOPLE,
Plaintiff and Respondent,
v.
GAVIN B. DAVIS,
Defendant and Appellant.
D074186
(Super. Ct. Nos. SCD266332,

SCD273043)

09/10/2019
Order denying rehearing petition filed.
The Petition for Rehearing is Denied.

APPENDIX D

A

r
le

IN THE SUPREME COURT OF THE STATE OF
CALIFORNIA
THE PEOPLE
CALIFORNIA

OF

THE

STATE

OF

Plaintiff and Respondent,
v.
GAVIN B. DAVIS,
Defendant, Appellant and Petitioner.
Supreme Court
Case No._____
Appeal Court (4th Dist., Div. 1)
Case No. D074186
Superior Court
Case No.: SCD266332, SCD273043
APPEAL FROM THE SUPERIOR COURT OF
SAN DIEGO COUNTY
Honorable Timothy Walsh, Judge
PETITION FOR REVIEW

-

GAVIN DAVIS
625 “C” St., #325
San Diego, CA 92101
(858) 876-4346
gavinprivate96@gmail.com
Pro per seeking Counsel

APPENDIX E

2e
TO THE HONORABLE TANI G. CANTILSAKAUYE, CHIEF JUSTICE, AND TO THE
HONORABLE ASSOCIATE JUSTICES OF THE
SUPREME COURT OF THE STATE OF
CALIFORNIA:
Petitioner, Mr. Gavin B. Davis, Pro Per,
timely petitions this Court for review of the
Opinion of the Court of Appeal, Fourth Appellate
District, Division One (case no.: D074186), issued
by that court on August 21, 2019 (Exhibit A).
Petitioner’s retained attorney, Mr. John O.
Lanahan (CSBN# 133091), briefed such matter
for the Petitioner, including filing a Petition for
Rehearing on September 5, 2019, as denied
September 10, 2019; and, finding, in part, that
the Court of Appeal has errored in relying on an
incomplete and inaccurate fact pattern and
procedural background of this controversy.
QUESTIONS PRESENTED
Did the Court of Appeal err in its (a)
inquiry and (b) application of Boykin / Tahl23
analysis under its (c) “totality of circumstances”
standard of review in relying on an (d) incomplete
and erroneous factual record24 in denying
Appellant’s appeal of his timely and diligent
Withdraw of Plea (April 23, 20198) efforts prior to
Sentencing (June 7, 2018); where, Petitioner
states that (e) there is substantially more than a

23 See Boykin v. Ala. (1969) 395 U.S 238, 243; In re
Tahl (1969) 1 Cal.3d 122, 132.
24 See fn 10 for detail.

3e
reasonable probability25 had Petitioner (i) been at
liberty26 subject to (f) reasonable and flexible
bail27; or, (ii) been presented with the alternative
to the Plea Hearing (i.e. a bail review hearing, as
had been calendared three (3) times); he would
have continued to trial on all matters (as still
sought) and not entered into any Plea
Agreement28, as entered into involuntary /
coerced in direct exchange for that which he was
already awaiting: his pre-trial liberty; meeting
the requisite standard of review under the proper
1
4
25 A low threshold without substantial burden of proof
26 Petitioner had: (a) made twenty-seven (27) nonduplicative court appearances while at liberty
27 Petitioner was held in pre-trial detention and
custody for approximately six (6) months awaiting
three (3) bail review motions calendared without filing
or argument thereupon, on excessive, and punitive
bail of One Million Dollars ($1,000,000), believe to be
the highest monetary bail in the history of California
for one (1) felony charge, a non-violent Ca PC § 594(a)
for property damage on his wholly-owned (i.e. noncommunal) Recorded Homestead
28 A coerced and involuntary plea, April 23, 2018 (see
D074186 Briefing) application of Boykin / Tahl),
which is a fundamental error in the opinion skewing
the analysis and result of the proceedings under such
totality of the circumstances28 and having a
“substantial and injurious effect or influence in
determining the jury’s verdict [or in this case the
prejudice of a non-satisfactory verdict absent the
benefit of a jury trial as afforded, a priori, under the
Seventh Amendment,]
prima facie (see also
Petition for Rehearing, Basis for Rehearing)

4e
REASONS FOR GRANTING REVIEW
(1) The Court’s Opinion (August 21, 2019)
in not liberally allowing for and granting a
Withdraw of the April 23, 2018 Plea, as sought,
after being held on excessive, punitive and
unreasonable bail of One Million Dollars
($1,000,000), several magnitudes of order off the
bail schedule, while facing one non-violent felony
charge for property damage on Petitioner’s
wholly-owned Record Homestead is (a) an error
that has a “substantial and injurious effect or
influence in determining the jury’s verdict [or the
prejudice of a non-satisfactory verdict / judgment
absent the benefit of a jury trial in the form of a
plea agreement, prima facie] . .
; and, (b) is
contrary to, or involved an unreasonable
application of, clearly established federal law, as
determined by the Supreme Court of the United
States; where Petitioner had, in priority, his:
Fourth (pre-trial liberty), Eighth (non-Excessive
or Punitive bail), Fifth (Due Process), Fourteenth
(Due Process), Seventh (Jury Trial) and even
Ninth Amendment, rights violated. (28 U.S.C. §
2254(d)(1))
(2) Also of note, a priority issue in the
overall controversy involves the misuse of
monetary bail, and pre-trial detention and
custody. In California, as well as in other states
and before the federal court system, such issues,
are of Constitutional dimension (e.g. 4th and 8th
Amendments) and great importance (Rule 8.500
(b),(c)); and, in California existing law has been
approved'for change (see e.g. Ca SB 10) (People v.
Feggans, supra, 67 Cal.2d 444, 447; attorneys
have a duty to advocate for changes in the law).

5e
Petitioner finds that this controversy would be
additive to pending California Supreme Court
case, In re Humphrey, S247278. (A152056; 19
Cal.App.5th 1006; San Francisco County Superior
Court; 17007715)(in collecting cases, and a
Petition for Review may be Granted a grant and
hold,” pending the Court’s decision of the lead
case. (Cal. Rules of Court, rule 8.512(d)(2))) as a
priori, the Issue is the same: monetary bail,
excessive bail, punitive bail, pre-trial liberty, 4th
Amendment, 8th Amendment (Constitutional
Rights) — in this case, have direct application
before and after CA SB 10, the Bail Money
Reform Act8. (also, exhausting state remedies is a
priority in this movement to preserve federal
rights, O'Sullivan v. Boerckel, 526 U.S. 838, 84445 (1999), where Rehearing was first sought
(September 5, 2019), as the California Supreme
Court can, and normally will, refuse to reach an
issue because of the failure to petition for
rehearing. (See, e.g., People v. Peevy (1998) 17
Cal.4th 1184, 1205-1206; and, People v. Bransford
(1994) 8 Cal.4th 885, 893, fn. 10.) If the Supreme
Court declines to reach an issue because of this
procedural default, there’s a good chance a federal
court will refuse to consider the issue on federal
review based on the fact that it was decided on
“independent and adequate state procedural
grounds.” (See, e.g., Wainright v. Sykes (1977) 433
U.S. 72.)(also see Jackson v. Virginia (1979) 443
U.S. 307 and Estelle v. McGuire (1991) 502 U.S.
62, 69, regarding federal constitutional claims
(e.g. bail, and Fourth and Eighth Amendment
right violations, a priori to this appeal, without
prejudice to any factual basis, substantive due
process, etc.)

6e

DID THE COURT OF APPEAL ERR IN
ITS (A) INQUIRY AND (B) APPLICATION OF
BOYKIN / TAHL29 ANALYSIS UNDER ITS (C)
“TOTALITY
OF
CIRCUMSTANCES”
STANDARD OF REVIEW IN RELYING ON AN
(D)
INCOMPLETE
AND
ERRONEOUS
FACTUAL RECORD30; WHERE, PETITIONER
STATES
THAT
(E)
THERE
IS
SUBSTANTIALLY
MORE
THAN
A
REASONABLE31
PROBABILITY32
HAD
29 9 See Boykin v. Ala. (1969) 395 U.S 238, 243; In re
Tahl (1969) 1 Cal.3d 122, 132.
30 See e.g., D074186, Petition for Rehearing, “the
Court overlooked his statements in open court that
contradicted, rather that supplemented, the waiver of
rights he had initialed on the change of plea form” (pg.
5-6) and “minute orders and his own statements at the
change of plea hearing show that he believed the only
way he would be released was if he pleaded guilty,”
(Id., pg. 6) in support that the factual basis and
procedural background presented in the opinion are
inaccurate including but not limited to overlooking
such minute orders, actions and intent, and oral
dialogue, where Petitioner at many instances in the
record raised considerable doubt as to what rights he
was waiving in exchange for his immediate (i.e. same
day) own recognizance return to pre-trial liberty while
not being provided the alternative (i.e. a bail review
motion as previously repeatedly calendared); and,
therefore, reliance on a partial and/or incorrect fact
pattern.
31 Act is an Amendment to Section 27771 of the
California Government Code, and to add Section
1320.6 to, to add Chapter 1.5 (commencing with
Section 1320.7) to Title 10 of Part 2 of, and to repeal
Chapter 1 (commencing with Section 1268) of Title 10

7e

PETITIONER (I) BEEN AT LIBERTY33
SUBJECT TO (F) REASONABLE AND
FLEXIBLE BAIL34; OR, (II) BEEN PRESENTED
of Part 2 of, the Penal Code, relating to pretrial
release, and detention
32 A low threshold without substantial burden of proof
33 Petitioner had: (a) made twenty-seven (27) nonduplicative court appearances while at liberty
(4/14/16; 6/16/16; 7/7/16; 7/13/16; 7/21/16; 8/11/16;
8/24/16; 8/25/16; 10/5/16; 11/3/16; 11/14/16; 11/16/16;
1/27/17; 1/30/17; 2/14/17; 2/28/17; 3/17/17; 3/29/17;
4/5/17; 4/6/17; 4/14/17; 7/6/17; 7/28/17; 8/15/17; 8/29/17;
9/21/17; 10/10/17 (am) in these cases; and, (b) missed
court on three (3) occasions, each with good cause: (i)
Defendant’s Pro Per Ex Parte on February 7, 2017
(not noticed); (ii) April 17, 2018 (requested each of:
attorney through OAC; waiver of conflict with prior
attorney; and, continuance for an attorney (i.e. good
cause); and, (in) one of two (1 of 2) court appearances
on October 10, 2017 (when his bail was raised to an
unconscionable One Million Dollars), for an
unavoidable medical issue, also representing Good
Cause. Defendant has also several times flown several
thousand miles to appear at court, at liberty;
including on only 24 hours notice.” (ASP AB, pg. 6, K
9); and, (b) as indicated, Petitioner had pending bail
review motion on calendar at least three (3) times
during his pre-trial detainment, which was removed
by his defense counsel without notice, filing any form
of motion or otherwise (note: D074186, R. at 725., one
of several reasons Declared pursuant to Ca PC § 1018,
“the Bail Review Motions were never filed, could have
grounds, on this alone, of the ineffective assistance of
counsel, a common legal ground for filing a Motion to
Withdraw a Plea (failure to file and argue the
appropriate motions)
34 Petitioner was held in pre-trial detention and
custody for approximately six (6) months awaiting

8e
WITH THE ALTERNATIVE TO THE PLEA
HEARING (I.E. A BAIL REVIEW HEARING, AS
HAD BEEN CALENDARED THREE (3) TIMES);
HE WOULD HAVE CONTINUED TO TRIAL ON
ALL MATTERS (AS STILL SOUGHT) AND NOT
ENTERED INTO ANY PLEA AGREEMENT35,
AS ENTERED INTO INVOLUNTARY /
COERCED IN DIRECT EXHANGE FOR THAT
WHICH HE WAS ALREADY AWAITING: HIS
PRETRIAL
LIBERTY;
MEETING
THE
REQUISITE STANDARD OF REVIEW UNDER
THE PROPER APPLICATION OF BOYKIN /
TAHL), WHICH IS A FUNDAMENTAL ERROR
IN THE OPINION, SKEWING THE ANALYSIS
AND RESULT OF THE PROCEEDINGS UNDER
SUCH TOTALITY OF THE CIRCUMSTANCES36
AND HAVING A “SUBSTANTIAL AND
INJURIOUS EFFECT OR INFLUENCE IN
DETERMINING THE JURYS VERDICT [OR IN
THIS CASE THE PREJUDICE OF A NONSATISFACTORY VERDICT ABSENT THE
BENEFIT OF A JURY TRIAL AS AFFORDED, A
three (3) bail review motions calendared without filing
or argument thereupon, on excessive, and punitive
bail of One Million Dollars ($1,000,000)
35 A coerced and involuntary plea, April 23, 2018 (see
D074186 Briefing)
36 Given factual errors and omissions (see e.g. Petition
for Rehearing, as well as brought forth herein), it is
impossible to, a priori, view the situation under the
standard of review: i.e. what would the party have
done with a reasonable probability when presented
with the alternatives to plea (e.g. in this situation, bail
review hearing and substantive movement, e.g. as
evidenced via three (3) calendared hearings)

9e
PRIORI,
UNDER
THE
SEVENTH
AMENDMENT,] ...” PRIMA FACIE (SEE ALSO
PETITION FOR REHEARING, BASIS FOR
REHEARING) BOYKIN / TAHL DISCUSSION
The Court’s Opinion indicates that, “a
guilty plea must be knowing, voluntary, and
under
the
totality
of the
intelligent
circumstances. (People v. Farwell (2018) 5 Cal.5th
295, 301-302.) Upon a showing of good cause, the
court may allow a defendant to withdraw a plea of
guilty at any time before judgment. (Ca PC §
1018.) To establish good cause, it must be shown
that defendant was operating under mistake,
ignorance, or any other factor overcoming the
exercise of his free judgment. (Ibid.; People v.
Sandoval (2006) 140 Cal.App.4th 111, 123.)”
(Opinion, Discussion, pg. 6). As noted in the
factual section of this filing, hereafter, the Court
of Appeal did not adequately review and
incorporate Petitioner’s actions in regard to his
diligent and timely efforts to withdraw his plea.
The Court’s Opinion continues, “Davis
claims the trial court abused its discretion in
denying his motion to withdraw his guilty plea
because: (1) the record does not indicate that he
knowingly waived his constitutional rights, (2)
the plea was made in exchange for a promise that
he would be released on bail, (3) there was an
insufficient factual basis for the crime of
vandalism, and (4) Davis was not advised of the
collateral consequence of the loss of a professional
license. We conclude that these arguments lack
merit.” (Opinion, Discussion, pg. 7)
“Davis first argues that he did not
knowingly waive his constitutional rights. To this

lOe
end, he points out that during his change of plea
hearing, the court only explicitly identified the
right to trial by jury.5 He therefore claims the
record does not indicate that he was apprised of
his constitutional rights and then knowingly
waived them. We disagree, (fn 5, Davis argues
that he must b informed of and then knowingly
and intelligently waive the right against
selfincrimination, the right to trial by jury, and
the right to confront one's accusers. (See Boykin v.
Ala. (1969) 395 U.S 238, 243; In re Tahl (1969) 1
Cal.3d 122, 132.) (Id.)
Operative to the Court’s reasoning is the
concept of “totality of the circumstances,” yet in a
closer purvey of case law history surrounding
precedential authority under such notion, the
totality of the circumstances weigh decidedly in
favor of the Appellant, and the withdraw of his
plea.
Appellant, in review of the Court’s
authority found in the Opinion, People v. Howard
(1992) 1 Cal.4th 1132, 1180, Appellant, notes the
following in part: (a) “Nor should the trial court
blind itself to everything except defense counsel's
presentation. Indeed, we have emphasized that
such rulings require trial judges to consider “all
the circumstances of the case” (Wheeler, supra, 22
Cal.3d at p. 280) and call upon judges’” ‘powers of
observation, their understanding of trial
techniques, and their broad judicial experience.’”
(People v. Bittaker (1989) 48 Cal. 3d 1046, 1092
[259 Cal. Rptr. 630, 774 P.2d 659] (Bittaker),
quoting Wheeler, supra, 22 Cal. 3d at p. 281; see
also Batson, supra, 476 U.S. at p. 97 [90 L.Ed.2d
at p. 88].)”

lie
(i) In SCD266332, Appellant made an
automatic peremptory challenge (a prima facie
showing is evidenced in the Record (or if not,
purposefully omitted (e.g. transcript) requiring
augmentation) of Judge Jeffrey F. Fraser on April
[6], 2017, which was unlawfully denied—a
[structural] defect rendering all such future
findings in the case(s) as reversible
(ii) Appellant’s trial attorneys filed no pre­
trial motions, and did not advance the
proceedings, denying the Appellant due process,
prima facie—failing to timely file and argue
motions (including but not limited to the three (3)
bail review motions) is common grounds for an
ineffective assistance of counsel (IAC) claim, a
common reason for withdrawing a plea, which can
be raised via habeas relief.
(iii) “We expressly based our decision in
Yurko on the interpretations of federal law set out
in Boykin and Tahl. (See Yurko, supra, 10 Cal. 3d
at p. 863.) However, the overwhelming weight of
authority no longer supports the proposition that
the federal Constitution requires reversal when
the trial court has failed to give explicit
admonitions on each of the so-called Boykin
rights. Accordingly, we have no choice but to
revisit our prior holdings. “The question of an
effective waiver of a federal constitutional right in
a proceeding is of course governed by federal
standards.” (Boykin, supra, 395 U.S. at p. 243 [23
L.Ed.2d at p. 279].)” “As discussed below, we now
hold that Yurko error involving Boykin/Tahl
admonitions should be reviewed under the test
used to determine the validity of guilty pleas
under the federal Constitution. Under that test, a
plea is valid if the record affirmatively shows that

12e
it is voluntary and intelligent under the totality of
the circumstances. (See North Carolina v. Alford
(1971) 400 U.S. 25, 31 [27 L. Ed. 2d 162, 167-168,
91 S. Ct. 160]; Brady v. United States (1970) 397
U.S. 742, 747-748 [25 L. Ed. 2d 747, 755-756, 90
S. Ct. 1463]; see also the cases cited in fn. 18,
post.) In the exercise of our supervisory powers,
we shall continue to require that trial courts
expressly advise defendants on the record of their
Boykin/Tahl rights. However, errors in the
articulation and waiver of those rights shall
require the plea to be set aside only if the plea
fails the federal test.”
uu
In the 22 years since Tahl, our
interpretation of federal law in that opinion has
not garnered significant support in the federal
courts. Indeed, the high court has never read
Boykin as requiring explicit admonitions on each
of the three constitutional rights. Instead, the
court has said that the standard for determining
the validity of a guilty plea “was and remains
whether the plea represents a voluntary and
intelligent choice among the alternative courses
of action open to the defendant.” (North Carolina
v. Alford, supra, 400 U.S. at p. 31 [27 L.Ed.2d at
p. 168], citing Boykin, supra, 395 U.S. at p. 242
[23 L.Ed.2d at p. 279]; see also Brady v. United
States, supra, 397 U.S. at pp. 747-748 [25 L.Ed.2d
at pp. 755- 756].)” People v. Howard (1992)
In this case, the alternative course of action
to the defendant was a bail review motion; and
after awaiting one for six months, being
calendared three (3) times with no filing or
argument thereupon, Appellant felt the only way
he could obtain his pre-trial liberty given that his
trial counsel was clearly ineffective in doing such,

13e
was to enter the plea - doing so in direct
exchange for his freedom on his Own
Recognizance on such day, and then immediately
moving to withdraw the plea. The Record of April
23, 2018, does not indicate that defendant was
apprised of his alternatives to the plea by any
party (i.e. counsel, opposition or the court) (i.e.
namely having a bail review motion, as he sought
and was unconstitutionally denied).
In Howard, the court goes on in
commenting from “People v. Bloom (1989) 48 Cal.
3d 1194, 1219 [259 Cal. Rptr. 669, 774 P.2d 698]
(Bloom), in which we analyzed another
defendant's request to control the presentation of
his case as a motion for [1 Cal. 4th 1186] self
representation. Unlike the defendant in Bloom,i
however, defendant here did not seek to " 'go pro.
per.,'" to assume the role of" 'co-counsel,' " to call
witnesses, or to participate in their examination.
(Id., at p. 1219.) In the case before us, to be sure,
defendant's wishes severely limited what counsel
might do on his behalf. However, defendant was
entitled to place such limits, and counsel could
properly choose to respect them. (See Deere II,
supra, 53 Cal.3d at pp. 713-717; Lang, supra, 49
Cal.3d at p. 1031.)” Yet, in this case, Appellant
had done precisely this, and was denied (April 23,
2019, Transcript reflects such notion).
“For its part, Alford states that United
States u. Jackson (1968) 390 U.S. 570 [20 L. Ed.
2d 138, 88 S. Ct. 1209], "established no new test
for determining the validity of guilty pleas. The
standard was and remains whether the plea
represents a voluntary and intelligent choice
among the alternative courses of action open to
the defendant." (400 U.S. at p. 31 [27 L.Ed.2d at

14e
pp. [1 Cal. 4th 1200] 167- 168].)” Jackson dealt
only with the question whether a guilty plea
entered to avoid the death penalty was”
voluntary. Here too, the quoted statement does
not bear on the issue of express admonitions and
waivers.
“For example, in many cases a reviewing
court may perhaps be able to declare the error
harmless by finding that the trial court
substantially complied with its obligations. The
standard, suggested by the case law, is whether
"the record ... affirmatively disclose[s]" (Brady u.
United States, supra, 397 U.S. at p. 747, fn. 4 [25
L.Ed.2d at p. 756]) that the guilty plea or
admission in question "represents a voluntary
and intelligent choice among the alternative
courses of action open to the defendant" (North
Carolina v. Alford, supra, 400 U.S. at p. 31 [27
L.Ed.2d at p. 168]). That is to say, does the record
show on its face that the guilty plea or admission
amounts to a knowing and voluntary decision to
exercise or abandon the three basic trial rights?
The relevant choice-trial or no trial-can be
knowing and voluntary if and only if what is
chosen thereby-trial rights or no trial rights-is
itself understood and intended, fh. 5”
“In other cases, in which substantial
compliance cannot be found, the reviewing court
may simply vacate the judgment in pertinent part
and remand the cause to the trial court for a
limited evidentiary hearing. At such a hearing,
the court would determine whether the
defendant's guilty plea or admission was in fact
knowing and voluntary. If yes, it would reinstate
the judgment. If no, it would strike the guilty plea
or admission and allow the defendant to respond

15e
to the charge anew.” (People v. Guzman (1988) 45
Cal. 3d 915, 968 [248 Cal. Rptr. 467, 755 P.2d
917], which holds that such an error on an
admission is subject to harmless-error analysis
under what is evidently the "reasonable
probability" standard of People v. Watson (1956)
46 Cal. 2d 818, 836 [299 P.2d 243]; People v.
Wright (1987) 43 Cal. 3d 487, 493-495 [233 Cal.
Rptr. 69, 729 P.2d 260], which holds that such an
error on a submission that is not tantamount to a
guilty plea is subject to harmless-error analysis
under the Watson "reasonable probability"
standard; In re Ibarra (1983) 34 Cal. 3d 277, 283,
footnote 1 [193 Cal. Rptr. 538, 666 P.2d 980],
which states in dictum that such an error on a
guilty plea is automatically reversible; In re
Ronald E. (1977) 19 Cal. 3d 315, 320-321 [137
Cal. Rptr. 781, 562 P.2d 684], which makes the
same statement in dictum; People v. Johnson
(1989) 212 Cal. App. 3d 1179, 1182 [261 Cal. Rptr.
159], which holds that such an error on a guilty
plea or an admission is automatically reversible;
People v. Shippey (1985) 168 Cal. App. 3d 879,
889 [214 Cal. Rptr. 553], which holds that such an
error on an admission is subject to harmless-error
analysis
under
the
Watson
"reasonable
probability" standard; and People v. Prado (1982)
130 Cal. App. 3d 669, 675 [182 Cal. Rptr. 129],
which makes the same holding). The mere
calendaring of the three (3) bail review motions
over such a lengthy period of time, is prima facie
evidence, that there is a reasonable probability
Petitioner would unequivocally have not entered
into the plea had the bail review motions been
filed in writ, and argued upon before the court.
Therefore, the plea is automatically reversible.

16e
The Court’s Opinion indicates that,
“further, the court may rely on a validly executed
waiver form as a sufficient advisal of rights.
(People v. Cisneros-Ramirez (2018) 29 Cal.App.5th
393, 402-403 Mosby, supra, 33 Cal.4th at pp. 360361.) The court need not specifically review the
waiver with the defendant when both the
"defendant and his attorney have signed waiver
form, both have attested to defendant's knowing
and voluntary relinquishment of his rights, and
the trial court's examination of the defendant and
his attorney raised no questions regarding the
defendant's comprehension of his rights or the
consequences o his plea." (Cisneros-Ramirez, at p.
402; People v. Panizzon (1996) 13 Cal.4th 68, 8384.)”
The
Court’s
Opinion
adds,
“We
independently examine the entire record to
determine whether the defendant knowingly and
voluntarily waived his rights. (People v. Elliott
(2012) 53 Cal.4th 535, 592.)” (Id.) Yet, it is clear
that the Court did not review the entire record de
novo, or it would have found that Appellant at
many instances in the Record raised considerable
doubt as to what he was waiving in exchange for
his return to pre-trial liberty (see factual
omissions brought forth further in this filing in
support) (“Absent something in the record raising
a doubt defendant understood and knowingly
waived his appeal rights, a written waiver of
those rights by defendant, coupled with
defendant’s and his attorney’s attestations to the
court that defendant understood and voluntarily
relinquished each right, is sufficient to establish a
defendant’s waiver of his right to appeal was
knowingly, voluntarily, and intelligently made.”

17e
(.Panizzon, supra, 13 Cal.4th at pp. 83-84.)
Therefore, Appellant has met this burden as the
records shows in numerous instances he has met
the low burden of expressing and raising doubt,
prior to the Court propounding him into clear
submission. It is also noteworthy that in Panizzon
(which the Court’s Opinion rehes upon and brings
forth), the crimes were of grotesque moral
turpitude (as opposed to this controversy), and
also such appeal there was no probable cause
found pursuant to Ca PC § 1237.5 (as opposed to
this controversy, where on June 8, 2018, after
being denied an oral withdraw of plea at
Sentencing of June 7, 2018, Petitioner, moving
Pro Per, filed his own Notice and Statement of
Appeal and requesting that the trial court issue a
certificate of probable cause for the appeal
pursuant to 1237.5, which the trial court did
(June 19, 2018), rendering the application of
Panizzon to this controversy not highly relevant Panizzon didn’t have probable cause for the
appeal, which this Petitioner did and does in
continuing to seek equitable redress and the
upholding of his Constitutional rights.).

FACTUAL BASIS AND PROCEDURAL
BACKGROUND PRESENTED IN THE
OPINION ARE INACCURATE
The Opinion, notes that “[o]n October 5,
2016, the court held a hearing regarding
[Appellant's] bail status. [Appellant's] wife
testified that [Appellant] was threatening her and
that [Appellant] left a voicemail threatening to
kill her father. The court found that [Appellant]
violated court orders, failed to appear at a

18e
forensic evaluation, and had threatened a
protected person with great bodily injury. The
court revoked [Appellant’s] bail and remanded
him into custody. [Appellant] was later released
from custody after bail was reinstated.” (Opinion
atpg.
2) In response thereto, Appellant (Davis)
notes, in part, that:
(a) a priori, the Court is referencing
information from MH112708, a special civil
hearing inside of a criminal proceeding (i.e. CA
SDC 266332), and therefore is inadmissible, other
than IF (solely) Appellant is, or is not, competent
to stand trial (a binary, in the absolute, admission
for reliance to the criminal proceeding(s); and,
further
(b) this was disputed, as follows:
(i) Appellant had in fact noted that he
would in fact report, or appear, for the evaluation,
or otherwise so as to show respect for the court,
but did not need to consent and could and would
decline the evaluation, itself, as a defendant is
not legally required to undergo a “same”
evaluation, or separately, “treatment” before 1ST
proceedings can begin; finding authority in
Pederson v. Superior Court (2003), 130 Cal. Rptr.
2d 289. [105 Cal. App. 4th 931.]
(ii) In the Supreme Court of Estelle v.
Smith, supra, (1981) 451 U.S. 454, the United
States Supreme Court ruled that an accused need
not submit to a custodial mental competency
examination unless he has been informed of and
waived his Miranda rights. Appellant had not
waived any rights—and therefore, the custody on
October 5, 2016 in MH112708, was illegal, on this

19fc
grounds alone, not requiring to reach any
argumentation on the merits.
(iii) Appellant had evidenced he would
legally
appear for the
court
appeared
examination, to show respect of the court and the
order and has rightfully afforded and intended to
decline the evaluation upon such appearance.
Appellant indicated that as the private doctor,
Glassman, had been unable to be located for third
party service of process of cross-litigation against
parties accused of initiating the sham proceeding
on three attempts, he would be provided them in
person on October 17, 2016, upon which he would
promptly leave thereafter, and as indicated no
party is able to take Appellant into custody in
violation of his Constitutional rights.
(iv) Also on Record on October 5, 2016, “In
response, Ms. Ramirez to the court, “your Honor,
in regard the evaluation issue, Mr. Davis has
unequivocally indicated that he will not
participate in any 1368 evaluation.” Once again
seeking to clarify each of his unilateral right to
appear and not participate in the evaluation
Davis entered the record, “Objection.” Continuing,
and more fairly, Ms. Ramirez, “he will appear,
physically be present, but he will not participate.
He believes that he has that right and is calling
this a civil hearing to that extent. I'm not sure
that Mr. Davis appreciates or understands that
while there can be a trial by jury as to the issue of
competency, first, as the court indicated, we have
to start with an actual evaluation. Once that
report comes back, then he can disagree with the
results, if it is a finding of incompetent, and
experts can be appointed, and he can have a
trial.”

20e
(v) in regard to allegations of threats and
Ms. Unruh’s comments, they were disputed, “Ms.
Ramirez offered the opportunity to cross-examine
Ms. Unruh who has been sworn in. “Ma'am, has
there been any face-to-face contact between you
and Mr. Davis since the order was in place?” “No,
not except the couple of times I've seen him in
court.” “Is there any threats of violence to you in
those e-mails?” “There has been. In - I guess
there's been so many e-mails over the last year. I
have seen e-mails this year where he's referenced
shoes that OJ Simpson in”
In utter disbelief having sent an email
requesting the location of some of his belongings
from the parties formerly joined household, “I'm
wearing them. It's a type of shoe,” in reference to
his black Bruno Magh’s. “You know, he called my
dad and left a voice mail saying he's going to kill
my dad.” Once again in objection, “I did not.”
Judge Stone inquiring, “were the threats part of
any of the charges?” In response, DDA Trinh, “not
as it relates to Lindsay. But as it relates to her
father, which is the second case, he contacted him
in the middle of the night, and then also issued a
threat to him via voice mail. And we're still
awaiting to arraign Mr. Davis on that second
case.” Judge Stone, “and criminal proceedings
have not been suspended on that case.
That case is not before me.” DDA Trinh,
“No.” Davis on record, “they had been suspended.”
Judge Stone, now passively aggressive and
wishing to remand the defendant to custody,
stating and inquiring at once “for purposes of bail
argument.” Taking the cue in stride, DDA Trinh,
“that's correct. Judge McGuire was hesitant to
proceed, given the status of this case.” This was

21e
actually an outright lie by DDA Trinh. The fact
remains, the defendant had already posted a
$50,000 bail bond for the matter—and there was
no bail review provided for either the State of
California or for consideration of reduction by the
defendant—so this was a clear lie intended to
deceive Judge Stone and support DDA Trinh’s
ulterior motive in calling the ex parte hearing.
Judge Stone, in fairness, “okay, and are you
aware of any criminal history for the defendant?”
DDA Trinh in response, “No.” Further, the Ca PC
§ 422 charge was outright dropped, pre-trial
(August 2017) with no lesser charge in its place
(as reflected in the Record Minute Orders and
Prosecutorial Complaints).
(vi) Ms. Ramirez, also on Record on October
5, 2016, “Yes, your Honor. I do want to make
some points for this record. As to the request to
remand Mr. Davis, the Court has in its possession
e-mails, so I don't need to discuss that. Those emails have numerous parties, including the
subject of today's hearing, Lindsay Davis, also
Unruh. And the conditions of his OR happened,
as Counsel explained, back in April of this year.
Any subsequent contacts were in the context of
Mr. Davis having complaints or disagreements
with what is occurring in the family law case.
They do have a family law case pending. As is
common in those types of cases, the relationship
ended on terms that were not amicable. Ms. Davis
and her father are a source of emotional distress
to Mr. Davis, and he has expressed that quite
openly. He has attempted to litigate the matter
beyond family court into federal court, and there
are some issues with family court limiting his

22e
ability to file motions or make contact with the
attorney that was representing his ex.”
(vii) there is a specific procedure to be
followed regarding the ordering of a 1368
Evaluation pursuant to C.C.P. §§ 2032 (b)(d)(and
otherwise), which requires that Ms. Victoria
Ramirez provide a Declaration, stating facts
showing a reasonable and good faith attempt to
arrange for of such examination by an
agreement—what cannot lawfully happen is the
oral request and grant of a 1368 hearing outside
of all formalities of C.C.P. § 2032. Further, in
Baqleh v. Superior Court (People) (2002), “though
not constitutionally defective, the order directing
petitioner to submit to a mental examination by
one or more experts designated by the [100 Cal.
App. 4th 506] prosecution does not comply with
the Civil Discovery Act and, accordingly, must be
vacated
(viii) In United States v. Wade 388 U.S.
218, 226-227 (1967) it is stated that “it is central
to [the Sixth Amendment] principle that in
addition to counsel's presence at trial, the accused
is guaranteed that he need not stand alone
against the State at any stage of the prosecution,
formal or informal, in court or out, where
counsel's absence might derogate from the
accused's right to a fair trial.” The right to
counsel clearly applies to the type of competency
proceedings with which we are here concerned. In
Estelle v. Smith, supra, 451 U.S. 454 the Supreme
Court found that the defendant's right to counsel
attached at the time the trial judge informally
ordered the state's attorney to arrange a
psychiatric examination to determine whether he
was competent to stand trial, which the court

23e
described as a “ ‘critical stage’ of the aggregate
proceedings" against him. (Id. at p. 470.). Yet in
this case and instance, there was a clear conflict
between Davis and his counsel, Ms. Ramirez;
therefore, a priori (i.e. in priority), the first
manner is not whether Davis is competent to
stand trial, withstanding that merely discussing
such notion intelligently holds such as selfevident in a court of law, but whether Ms.
Ramirez should be subject to either or both of a
Mardsen Motion or a Faretta Motion, which is
held as true in procedural priority. Due process
violations of this magnitude run far afield of
abuse of discretion and create substantial harm
and injury.
(ix) From the Court’s own authority, People
v. Howard (1992) 1 Cal.4th 1132, 1180 (Opinion
at pg. [x]) “a trial court is required to conduct a
competence hearing, sua sponte if necessary,
whenever there is substantial evidence of mental
incompetence. (Pennington, supra, 66 Cal.2d at p.
518; People u. Stankewitz (1982) 32 Cal. 3d 80, 93
[184 Cal. Rptr. 611, 648 P.2d 578, 23 A.L.R.4th
476]; see also Pate v. Robinson, supra, 383 U.S. at
p. 385 [15 L.Ed.2d at p. 822].) Substantial
evidence for these purposes is evidence that
raises a reasonable doubt on the issue. (People v.
Jones (1991) 53 Cal. 3d 1115, 1152 [282 Cal. Rptr.
465, 811 P.2d 757] (Jones).) In this case and
controversy, there is no evidence, let alone
substantial evidence, from the record of
Appellant’s “mental incompetence,” once again
rendering the custody of October 5, 2016 in
MH112708 as unlawful, prima facie.
The Opinion states that, “on April 17, 2017,
Davis failed to appear in court and the court

24e
issued a bench warrant. The prosecutor filed
another case against Davis, alleging his failure to
appear. On July 6, 2017, the bail forfeiture order
was set aside, and Davis was released from
custody.” (Opinion at pg. 2). Appellant (Petitioner
below) notes that he was already at liberty and
not “released from custody,” which is factually
incorrect and important to distinguish.
(a) “Respondent indicates that on April 14,
2017 and April 17, 2017, Petitioner willfully
failed to appear while released from custody on
bail, which is disputed. Of note, in part:
(a) Petitioner was at Court on April 14,
2017 (see e.g. Motion for Continuance, D074186,
Vol. 3, R. at 561-568., as filed on April 12, 2017,
and D074186, Minute Order, Vol. 3, R. at
773.)(Respondent has made an outright invalid
statement, which given access to the Minute
Orders (as well as citations thereof, and attempts
to lodge them without seeking approval of Court),
is therefore perjury) (b) On April 12, 2017, in
SCD266332, Petitioner filed a Motion to Waive a
Conflict (D074186, Vol. 3, R. at 569-587.), as filed
on April 12, 2017 with attorney, Mr. Patrick J.
Hennessy, Jr. (CSBN #47993), who withdrew
from SCD266332 / SCD267655 on January 27,
2017, against the express objections of the
Petitioner on such day, and in violation of “each of
C.C.P. § 284 and grossly [failing] each of Ca.
Rules of Court, Rule 3.1362(a), (b), (c), (d) and (e)”
in such improper withdraw, (c) On April 12, 2017,
Petitioner filed a Motion for appoint of counsel
through the Office of Assigned Counsel (OAC) as
previously GRANTED (see e.g. SCD266332, Oral
Record 1/27/17. Legal ancillary services were also
granted on this day (see Minute Order of 1/27/17

25e
for evidence of same, D074186, Vol. 3, R. at 747.)
(d) On April 14, 2017, Petitioner file a Motion for
a Continuance, as Mr. Hennessy was on vacation
and for other reasonable reasons (e.g. to obtain an
attorney) (D074186, Vol. 3, R. at 588-596.) (e) On
April 17, 2017, Petitioner filed a Notice of
Availabibty, that he would be unavailable until
he obtained counsel per the pending Motions and
requests. (D074186, Vol. 3, R. at 597-600.
Petitioner was clearly engaged with the process of
the law, and not evading it, the legal standard for
a failure-to-appear charge. Petitioner had good
cause for missing court on April 17, 2017, and had
moved in good faith, prima facie. There is no
other inference that any reasonable person of a
jury could draw.” (Appellant’s Pro Per Petition for
a Writ of Habeas Corpus, HC23597, Reply, pg. 89, f 10, as procedurally defaulted with the trial
court)
b) On his first court appearance before
Judge Jeffrey F. Fraser who issued the Bench
Warrants of April 17, 2017 and also October 10,
2017, Appellant had made an automatic
uncontestable Peremptory Challenge, which was
unlawfully denied.
(c) Apprehended in May 2017 in Vermont
where on work assignment, the SDDA
aggressively sought the extradition of Appellant
in order to continue its unlawful “framing”. In
lieu thereof, Appellant posted One Hundred
Thousand Dollars ($100,000) of bail in Vermont,
Fifty Thousand Dollars ($50,000) of bail in
California and then flew himself, at liberty back
to San Diego to continue addressing the disputed
charges. Further, Appellant has had been
rightfully sought in April, had now obtained

26e
criminal defense counsel and the professional law
firm of Ronis & Ronis (San Diego, California). On
July 6, 2018, Mr. Jason A. Ronis (CSBN
#229628), made an appearance on behalf the
Appellant; and, despite the Plaintiff having just
posted a combined One Hundred Fifty Thousand
Dollars ($150,000) of combined bail and flown
himself at liberty to San Diego, SDDA DDA
Leonard Nyugen Trinh, Vindictively and
Maliciously requested yet more bail, an additional
One Hundred Thousand Dollars ($100,000). On
such day the Court provided Appellant two hours
to post bail or be booked into custody. Despite
such clear burden, Appellant posted the bail and
remained at liberty.
(d) “The granting or denial of a continuance
during trial traditionally rests within the sound
discretion of the trial judge. (People v. Laursen
(1972) 8 Cal. 3d 192, 204 [104 Cal. Rptr. 425, 501
P.2d 1145]; see also People v. Grant (1988) 45 Cal.
3d 829, 844 [248 Cal. Rptr. 444, 755 P.2d 894].)
[20b] To establish good cause for a continuance,
defendant had the burden of showing that he had
exercised due diligence. (Owens v. Superior Court
(1980) 28 Cal. 3d 238, 250-251 [168 Cal. Rptr.
466, 617 P.2d 1098]; see also § 1050.)” In this
case, Appellant clearly had good cause for a
had
also
Continuance,
and,
separately,
demonstrated considerable due diligence in
obtaining an attorney in three different manners
(i.e. requesting one via OAC, filing a motion to
waive the undisclosed conflict with attorney
Hennessy, and requesting a continuance to obtain
private counsel (ultimately obtained, Ronis &
Ronis); as well as being clearly engaged with the
process of the law (e.g. the filing of motions,

27e
including a Notice of Availability) and not
evading it (e.g. letting all parties know how and
where to reach him even during his work travel).
The Opinion states that, “on October 10,
2017, Davis failed to appear in court after the
trial court denied a motion to continue his trial.
The court forfeited bail and issued another bench
warrant. Davis was arrested and remained in
custody until he pled guilty on April 23, 2018.”
(Opinion at pg. 2-3) In response thereto,
Appellant notes the following:
(a) Appellant had Good, and Sufficient,
Cause for missing one of two (1 of 2) court
hearings on October 10, 2017 under Ca PC §
1281. Appellant is still seeking to move against a
prior FTA charge (SCD273043). Appellant is not a
flight risk, and is clearly “engaged with the
process of the law,” prima facie. The Court’s
finding is conclusory and violates procedural due
process with an inference beyond that what is
supported in the record.
(b) The SDDA, inclusive of 4/23/18 (Dept.
11) conditions of release, had allowed Appellant
to appear OR at his last two court appearances,
and such precedent has been set and itself is
subject to Ca PC § 1319.5.
(c) See authority, People v. Gillman, 41
CA3d 181, 191 CR317 (1974), regarding Punitive
Bail; and, whereby One Million Dollars
($1,000,000) of bail was clearly excessive and
punitive.
(d) See also, Ca PC § 1275(c), and where
the Record of October 10, 2017 Record does not
indicate that this required statutory provision
was properly complied with.

28e
(e) See authority, In re Aydelotte, 97 CA
165, 275 D 510 (1929), regarding what constitutes
“good cause” (Appellant had missed one of two
appearances on such day for an emergency doctor
appointment, prima facie good cause)
(f) See authority, In re McSherry, supra,
112 CA 4th 860-863, 5 CR3d 497 (2003), in noting
that conditions of bail must be reasonable and
related to public safety (which the October 10,
were, de facto not, especially in light of the most
recent OR grants)
(g) See authority, Gray v. Superior Court,
125 CA 4th 629, 636-643, 23 CR3d 50 (2015), and
an imposition of a bail condition may not violate a
defendant’s due process rights, which clearly such
did.
(h) California Const. (Art. I, sec. 12)
guarantees a right to pre-trial release on
nonexcessive bail
(i) No opportunity to review the Court’s
(Fraser, Dept. 37) “specific grounds in support of
its decision to set bail in excess of the bail
schedule on October 10, 2017, as held as
prerequisite, on record in In re Christian, 92 CA
4th 1105, 1109-1110, 112 CR2d 495 (2001)”
(j) “Stay Away Orders” themselves are
sufficient by case law authority to ensure the
protection of an alleged victim (In re York, supra,
9 C4th 1145, 40 CR2d 308 (1995)) (i.e. not
requiring custody on October 10, 2017, or anytime
thereafter, supported by the April 23, 2018
release O/R)
(k) A defendant, such as the Appellant,
who is not advised of the consequence and
penalties of violating the conditions of release and
penalties of violating the conditions of release and

29e
who fails to appear in court cannot be found to
have “willfully” failed to do so (People v. Jenkins,
146 CA3d 22, 27, 193 CR 854 (1983)
(1) A representation by defense counsel that
the defendant had good reason to not be present
will support an implied finding that sufficient
excuse exists (People v. Amwest Sur. Ins. Co.,
supra, 56 CA 4th at 925 (1997); also People v.
Surety Ins. Co., 55 CA 3d 197, 201, 127 CR 451
(1976)
(m) See rights of O.R. release, and
continued O.R. unless missing three (3) court
dates thereafter (Ca PC § 1319.5), as Granted in
August 2018.
(n) Prosecution failed to timely (i.e. within
fourteen (14) days, and there is no implied or
express finding of such against a defendant, any
defendant (see e.g. People v. Forrester, 30 CA 4th
1697, 37 CR2d (1994)) produce any proof that
Defendant (Appellant) “willfully” failed to appear
(not implied in fact pursuant to Ca PC §§ 1320,
1320.5); Defendant (Appellant’s) actions are the
opposite of “evasion” of the law,” prima facie
(o) Subsequent to Appellant’s Grant of O.R.
release
(August
2017),
prosecution
was
procedurally defaulted from making any
argument, or presenting any facts prior to
October 10, 2017, in suggesting or requesting
grounds for increased bail for the Court’s
consideration (see case law authority on such
estoppels, In re Berman, 105 Cal. App. 270, 271272 (1930); as held in In re Alberto, 2nd Dist.,
Div. Eight, (9/25/02, 9/30/02))
(p) See also, Ca PC § 1281
In regard to the Opinion discussing the
April 23, 2018 Plea Hearing (pg. 3-4), the Court

30e
does not indicate (though should), as is highly
relevant, that:
(a) upon being sworn in, Appellant
indicated that, “I can[‘t] swear to that statement
other than the fact that a plea bargain does not
allow full due process; therefore, the full truth
cannot be disclosed,” alluding to the elephant-inthe room, namely being held on off-schedule bail
of One Million Dollars and having had three (3)
bail review hearing motions scheduled without
any associated filings or argument regarding
same, viewing such as a violation of his due
process rights, and separately violating his
Fourth and Eighth Amendment rights (R. at
1303, In 20-22)
(b) Appellant, attempting to explain the
situation in greater context was [admonished] by
the court to, “Mr. Davis, I just want you to answer
yes or no when I ask you a question. Okay?” (R. at
1304-1305, In 28-1), which is a violation of due
process and clear abuse of discretion subject to
reversal.
(c) Appellant indicates the direct exchange
for his pre-trial liberty in regard to entering the
plea, “there was that additional promise that i
would be - subject to the pleas, my liberty would
be returned today 10 April 23rd. If not, then the
pleas in their entirety are null and void, “ (R. at
1306, In 6-11)
(d) Appellant indicates the immediate
intention of moving on cross-action, “if I could get
a copy [of the plea agreement] today, it will be
filed in a federal cross action tomorrow,” (R. at
1306, In 15-17)
(e) Appellant willfully and wisely only
concedes his Constitutional rights in the State of

3 le
California, knowing that his Constitutional rights
are clearly being violated:
THE COURT: AND DO YOU GIVE UP THOSE
RIGHTS TO A JURY TRIAL AND ALL OF THE
RELATED RIGHTS IN ORDER TO PLEAD
GUILTY AT THIS TIME?
THE DEFENDANT: IN THE STATE OF
CALIFORNIA, SAN DIEGO COUNTY, YES,
YOUR HONOR
Given his view that, a priori, his Fourth
and Eighth Amendment rights were being
egregiously and unlawfully violated; and,
secondarily, therefore, his Due Process rights
under the Fifth and Fourteenth Amendments.
(f) when asked if appellant understood, “all
of the other potential consequences of your plea
as indicated on the [standardized] forms?”
Appellant responded that, “as they are stated on
the forms, I believe that I understand those to the
best of my ability and resources,” (R. at 1310, In
4-9) implying, again (i) that counsel had not fully
explained matters to him; and, (ii) that he was
not provided with the proper time or resources
(e.g. legal materials, a law library) to understand
the potential consequences of the plea, seeking
merely to be released from pre-trial detention,
withdraw his plea and move right back into
contesting all charges.
(g) in regard to the Court’s inquiry into a
Failure-to-Appear charge (R. at 1311, In 2-17):
THE COURT: ALL RIGHT. NOW, ON THE
FAILURE MISDEMEANOR TO APPEAR IT

32e

S

SAYS AFTER HAVING BEEN ORDERED TO
APPEAR IN COURT, YOU FAILED TO APPEAR
ON ANOTHER CRIMINAL CASE. THAT'S
WHAT I'M WRITING THERE. IS THAT WHAT
HAPPENED, SIR?
THE DEFENDANT: YES, THE SAME PLACE. I
ASKED - MAYBE, MR. TRINH, IF I'M
INCORRECTTHE COURT: OKAY. I JUST WANT TO KNOW
IF THAT'S TRUE OR NOT?
THE
DEFENDANT:
I
WAS
SELFREPRESENTED, AND THEN I FILED A
NOTICE OF AVAILABILITY AND OBTAINED
RONIS AND RONIS.
THE COURT: OKAY. I JUST WANT TO KNOW
IF YOU FAILED TO APPEAR AS IT'S
ALLEGED?
THE DEFENDANT: I WAS NOT THERE ON
THE DATE AS ALLEGED, YES
Appellant attempts to show and establish
his grounds for missing court, the factual findings
of the case fail to provide for the opportunity to
show, or dispute, Appellant’s steadfast contention
that he had good cause and was clearly engaged
with the process of the law, prima facie.
In the Opinion, the Court comments,
partially, on the June 7, 2018 Sentencing
Hearing, however:

33e
(a) the Court does not indicate that,
Appellant requests to go on record at the outset of
the hearing (R. 1404, In 13-14), which the Court
denies. Thereafter, Appellant indicates that he is,
“represented horizontally [i.e. as co-counsel], your
Honor,” which the Court immediately quashes,
“there's no such thing,” (R. at 1404-5, In 27-l)(see
also, Court denying Appellant [ ] R. at 1406, In
16-21)
(b) the Court’s Opinion does not indicate
that Appellant objects to the Court’s acceptance of
trial counsel’s view that
“based on his
conversations with you, determined there's no
basis for which you can withdraw your plea,” (R.
at 1405, In 7-21)
(c) the Court’s Opinion does not indicate
that Appellant attempted to diligently filed a Ca
PC § 1018 Declaration in regarding to Withdraw
of the Plea on (and before) June 7, 2018 (R. at
1406, In 6-12)
(d) the Court’s Opinion does not indicate
the Trial Court makes an overtly stronghanded [ ]
directed at the Appellant to accept the terms and
conditions of probation “[Appellant’s] exposed to
prison. And in the event he doesn't accept those
conditions, or for whatever reason demonstrates
to me that he has an inability to comply with
them, which he's already kind of started to do, the
Appellant, commenting, “your Honor
and
the
Court
stringently
and
overridingly
interjecting, “you're continuing to do it. — the
remedy that the court has available in terms of a
sanction is to sentence him to prison, so you
might want to take the time to talk to him
carefully about those realities.” (R. at 1407, In 110)

34e
(e) the Court’s Opinion does not indicate
that the Appellant via his trial attorney requests
to trail review of the terms and conditions of
probation, importantly something that cannot be
known at the time of entering into a plea, and
therefore, rendering any and all withdraw of a
plea prior to receipt and substantive review of
such terms and conditions of bail as automatic:
“your Honor, for the record, I [Jan E. Ronis] had
previously sent to Mr. Davis the probation report
with the terms and conditions that were attached,
and we also met yesterday. He feels as though he
does not have enough time to review those this
afternoon and would like to trail this until
Monday so he'll have adequate time to review
those terms and conditions,” which the court
denies, “okay. Mr. Davis, I'm not -- I'm not
inclined to continue the case to give you
additional time to go over these conditions, this
court is familiar with your lawyer. I've been
around in these courts for a period of time that
he's been around in these courts.” (R. at 1408, In
5-10; R. at 1409, In 6-10)
(f) affirms that Appellant does not wish to
accept the terms and conditions of the plea, “we
already took a break for about 10 minutes to go
over these, but I'm not inclined to just push this
down range because you don't want to accept the
conditions today,” and in doing so doubt is raised,
prima facie. (R. at 1409, In 19-22)
(g) Appellant indicates that if the trial
court will not accept his timely withdraw of plea
then he has no choice but to immediately file an
appeal, “your Honor, if I cannot have at least the
full business day, then i just have to file an

35e
appeal of what's handed out to me today with the
fourth — with the fourth appellate court.
The Court: Well, you're invited to do that -The Defendant: And I will.
The Court: -- if you want to do that.
The Defendant: Sure.
The Court: I mean, I have no problem with
The Defendant: That's my only option at
this point.
The Court: Well, it's not your only option.
Your option is, if you want to trail this —
The Defendant: Your Honor, may we have
at least 24 hours, please (R. at 1409-10, In 26-11)
(h) In the closed session (R. at 1412-1426,
the following is Noted as relevant:
(i) Court: “So it's not just today that he's
expressing discomfort with his situation or his
desire to withdraw his plea,” again evidencing
doubt as to the plea and desire to timely
withdraw.” (R. at 1416., In 3-4)
(ii) Commentary (R. at 1416., In 19-20; 2225)
(iii) Commentary (R. at 1417, In 14-19)
(iv) Commentary regarding the involuntary
and coerced nature of the plea (R. at 1418, In 714)
(v) Trial counsel indicating that in
exchange for a guilty plea (being held on
$1,000,000 of bail ("sizable") he would be released
'OR' (i.e no other terms and conditions - it
supports the notion that bail was used
unlawfully) (R. at 1420, In 11-20) The Court’s
Opinion indicates that, “except for the felony
vandalism offense, Davis does not challenge the
factual basis for his plea As such, we omit any
further discussion regarding the other offenses,

36e
which” (Opinion, pg. 4, fn 3) is disputed.
Everything beyond the priority of withdrawing
the plea, is secondary in the Appeal and expressly
reserved. Any omissions should not be treated
with prejudice, or the Appeal would have been
overly burdensome for appellate review.
Appellant attempted to file a Ca PC § 1081
Declaration as grounds for Withdraw of the Plea
on June 7, 2018. (RT 13 at pg. 6, In 11-12, 1406),
and was not allowed to. Also, the Court indicated
that, “THERE'S A PROCEDURAL PATH THAT
A CASE TAKES, AND YOU'RE AT A
SITUATION NOW WHERE YOU STAND
CONVICTED OF A CHARGE AND IT'S TIME
FOR SENTENCING. SO YOU CAN'T - YOU
CAN'T JUST TAKE THE FLOOR AND
PRESENT A BUNCH OF INFORMATION AND
GIVE SPEECHES OR FILE MOTIONS.”
Again, Appellant clarifying, “IT'S A
DECLARATION, YOUR HONOR, BUT I
UNDERSTAND YOUR POSITION.”
The trial court inquired if the Terms of
Probation had been reviewed by the Appellant’s
attorney with him, to which he responded, “No,
your Honor.” (RT 13 at pg. 6, In 19-21, 1406) If a
defendant does not know the terms and
conditions of probation until Sentencing, or
sometime after entering a Plea, a Withdraw of
Plea should be deemed, as moved, timely and
automatic.
These are clear indications of “not
knowingly” entering into a plea; doing so
“involuntary;” doing so under “coercion;” doing so
while seeking supplemental “intelligence” and
advice; expressing considerable doubt, and
otherwise; while not being provided any

'H

37e
alternatives other than exphcitly custody per the
April 23, 2018 exchange with the justice despite
seeking bail review.
PETITIONER AWAITED BAIL REVIEW FOR
SIX (6) MONTHS WITHOUT DUE PROCESS
The Ninth Cir. in Mackey v. Hoffman
(2012) held that in a habeas petition situation,
attorney abandonment (i.e. the removal or
foregoing of a protected right under the 6th
Amendment) was an extraordinary circumstance
that justified relief. Petitioner has demonstrated
that he was awaiting the preparation, fifing, and
hearing of Bail Review, to be returned to his
pretrial liberty, and move to trial (still sought, per
4th Dist., Div. 1, case no.: D074186), and had,
prima facie, ineffective assistance of counsel, in
not being afforded such; which in this capacity; is
almost identical to attorney abandonment
justifying the equitable relief sought herein this
habeas petition. Also, An imposition of a bail
condition may not violate a defendant’s
procedural due process rights Gray v. Superior
Court, 125 CA 4th 629, 636-643, 23 CR3d 50
(2005)).
Petitioner, would assert, that denying a
stay of probation during the pendency of appeal,
where sought, such as here, is a violation of due
process and restraint on one’s liberty (e.g. most
commonly it includes a Fourth Amendment right
waiver; yet, in this case, Defendant has not even
been afforded a trial in the underlying Superior
Court cases; which he is actively seeking. (ASP
PB, pg. 7-8, pp 19) (an ineffective assistance of
counsel claim can be made in a habeas corpus

38e
petition even such argument is not made
argument in a criminal appeal. People v. Jackson,
10 Cal.3d 265, 268 (1973) "Denial of the right to
effective assistance of counsel is one trial error
which is cognizable on collateral review-whether
or not it was raised on appeal.")”
“In Sheppard v. Rees, 909 F.2d 1234, 1236
(9th Cir. 1989), a California case, the court in
granting habeas relief (and reversing a conviction
predicated on premeditated murder), the
appellate court held that “a pattern of
government conduct affirmatively misled the
defendant, denying him an effective opportunity
to prepare a defense.” By way of direct parallel
and analogy, in this situation, “[Petitioner ...
stated, both in his written motion to withdraw his
guilty plea and before the trial court at
sentencing, that the reason he agreed to plead
guilty was because he had tried unsuccessfully to
get a bail review calendared three times in the
last six months and a guilt plea seemed the only
way to be released from jail. [13al418, 3CT 719].”
(D074186, AOB, pg. 18, “Involuntary Nature of
the Guilty Plea”) Further, whether, by each
standing on its own, or constructively, Petitioner,
notes that: (a) the prosecution had repeatedly
attempted to (unlawfully) remand him to pre-trial
detention and custody (e.g. pending federal 42
U.S.C. § 1983 cross-action, 9th Cir., 18-56202),
despite clearly, beyond any reasonable doubt
being “engaged with the process of the law” (e.g.
SCD266332, “Pocket Brief’ as filed for October 1,
2018 Application to Stay Probation (ASP) on
September 18, 2018 (“ASP PB”), “As evidence of
Defendant’s [Petitioner herein] engagement with
the process of the law; consider, that, he has:

3%
(a) made twenty-seven (27) non-duplieative
court appearances while at liberty (4/14/16
6/16/16; 7/7/16; 7/13/16; 7/21/16; 8/11/16; 8/24/16
8/25/16; 10/5/16; 11/3/16; 11/14/16; 11/16/16
1/27/17; 1/30/17; 2/14/17; 2/28/17; 3/17/17; 3/29/17
4/5/17; 4/6/17; 4/14/17; 7/6/17; 7/28/17; 8/15/17
8/29/17; 9/21/17; 10/10/17 (am) in these cases
and, (b) missed court on three (3) occasion, each
with good cause: (i) Defendant’s Pro Per Ex Parte
on February 7, 2017 (not noticed); (ii) April 17,
2018 (requested each of: attorney through OAC;
waiver of conflict with prior attorney; and,
continuance for an attorney (i.e. good cause); and,
(iii) one of two (1 of 2) court appearances on
October 10, 2017, for an unavoidable medical
issue, also representing Good Cause. Defendant
has also several times flown several thousand
miles to appear at court, at liberty; including on
only 24 hours notice.” (ASP AB, pg. 6, f 9); and,
(b) as indicated, Petitioner had pending bail
review motion on calendar at least three (3) times
during his pre-trial detainment, which was
removed by his defense counsel without notice,
filing any form of motion or otherwise (note:
D074186, R. at 725., one of several reasons
Declared pursuant to Ca PC § 1018, “the Bail
Review Motions were never filed, could have
grounds, on this alone, of the ineffective
assistance of counsel, a common legal ground for
filing a Motion to Withdraw a Plea (failure to file
and
argue
the
appropriate
motions).
“Constructively, from an argument standpoint,
Petitioner also notes that “ineffective assistance
of counsel” is a Sixth Amendment violation. For
example, in urging a federal speedy trial claim
the defendant must first experience a delay long

40e
enough to justify an analysis into whether the
Sixth Amendment has been violated. Not every
delay, even if prejudicial, is a violation if the case
has
been
prosecuted
with
“customary
promptness” (Doggett v. U.S., 505 U.S. 647, 652,
112 S. Ct. 2686, 120 L. Ed. 2d 520 (1992)).
However, if the delay is “uncommonly long,” it
will be presumed that the defendant has been
prejudiced in ways that cannot be demonstrated,
and in the absence of justification for the delay,
dismissal is required (Doggett v. U.S., 505 U.S.
647, 656, 112 S. Ct. 2686, 120 L. Ed. 2d 520
(1992)). In Serna v. Superior Court, 40 Cal. 3d
239, 219 Cal. Rptr. 420, 707 P.2d 793 (1985), as
modified on denial of reh'g, (Dec. 19, 1985), the
court held that a misdemeanor defendant need
not establish “actual prejudice” if the delay
between filing a complaint and arrest exceeded
one year. As a result, despite the Appeal
(D074186) moving, a priori, under an abuse of
discretion
standard,
Petitioner
has
also
experienced substantial prejudice (and clear harm
(moved separately under crossaction). (D074186,
AOB, Prejudice, discussed in part, at pg. 20-21)”
RELEVANT CA SB 10 COMMENTARY
“The ability to be out of custody while
facing criminal charges carries a number of
inherent advantages. A defendant who is released
on bail is able to carry on with their life while
awaiting the disposition of the criminal case. For
instance, criminal defendants who are out on bail
are able to maintain employment.” (citation
omitted)

41e
California Senate Bill No. 10 “creates a
presumption that the court will release the
defendant on his or her own recognizance at
arraignment
with
the
least
restrictive
nonmonetary conditions that will reasonably
assure public safety and the defendant’s return to
court.” The Appeal Opinion erroneously indicates
that the “[Appellant’s] plea was involuntary
because he made it in exchange for a promise that
he would be released on bail,” (pg. 1-2) Appellant
was released on April 23, 2018, having had three
(3) bail review motions on and off calendar,
without the filing or argument of such motions,
on his Own Recognizance (i.e. no bail) with no
other terms and conditions of bail, freely
traveling outside San Diego County and the State
of California, prior to Sentencing on June 7, 2018,
and also actively seeking to timely Withdraw his
Plea, a liberal standard, during and after this
period. Appellant had made twenty-seven (27)
court appearances at liberty including one on the
morning of October 10, 2017, prior to missing an
afternoon court session on such day for good
cause, and was clearly engaged with the process
of the law, prima facie.
“States legislative intent to permit
preventative detention of pretrial defendants only
in a manner that is consistent with the United
States (U.S.) Constitution as interpreted by the
U.S. Supreme Court, and only to the extent
permitted by the California Constitution as
interpreted by the state Courts of Appeal and
Supreme Court.” (California State Assembly Floor
Analyses, SB 10, Senate Third Reading, as
Amended August 20, 2018, pg. 1). “Standard of
proof of clear and convincing evidence,” on the

42e
prosecution if seeking pre-trial detention. (Id. at
Pg- 4)
“EXISTING LAW... Prohibits excessive
bail” (Id. at 4). “States that a person shall be
granted release on bail except for the following
crimes when the facts are evident or the
presumption great...Felonies where the court
finds by clear and convincing evidence that the
person has threatened another with great bodily
harm and that there is a substantial likelihood
that the person would carry out the threat if
released.” (Id. at 4-5). In this case, the only felony
charge which the Appellant faced as of October
10, 2017, was one (1) Ca PC § 594, Vandalism; not
classified as a “serious violent” felony, and
separately where, also there had been no
estabhshment of probable cause, or any due
process presenting evidence in the trial
proceeding. “SB 10 will completely eliminate
money bail in California. The current system is
both unsafe and unfair. Detention decisions that
are based on money and personal wealth are
inherently inequitable and does nothing to keep
us safer. Right now, release decisions are based
solely on your personal wealth, not on whether
you are a public safety risk or a flight risk. SB 10
resolves this in our justice system and replaces it
with one that will keep us safer and treat
individuals more fairly.” (Id. at pg. 6) There can
be no disputing the fact that Appellant was, a
priori, actively seeking his pre-trial release (e.g.
the prior court hearings, vacated, were each for
bail review), was clearly engaged with the process
of the law (from the totality of the circumstances,
see and weigh the significant number of pre-trial
hearings Appellant made at liberty) and that the

43e
substantial increase of monetary bail to One
Million Dollars ($1,000,000) was unfair, and
alleged as each of Excessive and Punitive.
“Existing Law. Prohibits excessive bail.”
(Senate Rules Committee, SB 10, August 21,
2018, Analyses).” SB 10, “[pjrovides that if either
party flies a writ challenging the preventative
detention hearing the appellate court shall
expeditiously consider that writ.” (Id. at pg. 5,
#18) In effect, the Rehearing Petition as a
Supplemental Brief, accomplishes the same while
being focused on the Appellant’s Constitutional
rights summarily abridged, also violating the Due
Process clauses of the 5th and 14th Amendments
in such process and past procedure.
Opposing the Amended SB 10, California
Attorneys for Criminal Justice, note, “getting rid
of money bail is meritorious; however, doing so by
potentially expanding pretrial incarceration is
unacceptable. We know too well how often
individuals are arrested without proper
justification...We fight for them in courtrooms
daily to ensure their due process rights, and to
preserve their right to be “presumed innocent”
even when it may not be popular...” (Id. at pg. 89).
“CA SB 10 requires a person arrested or
detained for a misdemeanor, except as specified,
to be booked and released without being required
to submit to a risk assessment by Pretrial
Assessment Services, thereby ending monetary
bail for these individuals absent extraordinary
circumstances. A person arrested or detained for
a misdemeanor, other than a misdemeanor listed
in subdivision (e) of Ca PC § 1320.10, may be
booked and released without being taken into

44e
custody or, if taken into custody, shall be released
from custody without a risk assessment by
Pretrial Assessment Services within 12 hours of
booking. This section shall apply to any person
who has been arrested for a misdemeanor other
than those offenses or factors listed in subdivision
(e) of Section 1320.10, whether arrested with or
without a warrant.” “The bill authorizes Pretrial
Assessment Services to release a person assessed
as being a low risk, as defined, on his or her own
recognizance, as specified.” “CA SB 10 requires a
superior court to adopt a rule authorizing Pretrial
Assessment Services to release persons assessed
as being a medium risk, as defined, on his or her
own recognizance. Appellant notes that therefore,
“lowrisk” persons shall be provided significant
liberty without impediment; as even medium risk
are released on their own recognizance.” (Ca PC §
1320.7, see August 28, 2018, Cal. Senate Bill No.
10, defines “High Risk,” “Medium Risk”, “Low
Risk,” and otherwise for additional reference)
Only, if the court determines that there is a
substantial likelihood that no conditions of
pretrial supervision will reasonably assure the
appearance of the defendant in court or
reasonably assure public safety, the bill would
authorize the court to detain the defendant
pending a preventive detention hearing and
require the court to state the reasons for the
detention on the record. The bill would prohibit
the court from imposing a financial condition. In
this
case
and
controversy,
Appellant’s
engagement with the process of the law and
record of court appearances provides an
abundance of evidentiary support that he will
“reasonably” appear at court while not being a

45e
safety threat, prima facie; Appellant was in fact,
entitled to each of release (i.e. Fourth and Eighth
Amendments) and a Trial (Seventh Amendment)
as sought and still desired. Denying such, also
violated his rights to Due Process (Fifth and
Fourteenth Amendments).
CA SB 10 requires that in cases in which
the defendant is detained in custody, the bill
would require a preventive detention hearing to
be held no later than three (3) court days after
the motion for preventive detention is filed. The
bill would grant the defendant the right to be
represented by counsel at the preventive
detention hearing and would require the court to
appoint counsel if the defendant is financially
unable to obtain representation. However, in this
case, Appellant has raised an Ineffective
Assistance of Counsel (LAC) claim, a very common
reason for the withdraw of a plea, in that his trial
attorney did not file or argue the bail review
motions as calendared (add citation). Petitioner
should not have to suffer the consequences,
including collateral consequences, of his rights
being violated while doing everything in his
power to go to trial on the allegations—matters
that CA SB 10 seeks to address, in part.
As proposed to take effect, Ca PC §§
1320.10(e)(7), per California Senate Bill No. 10
shall read, “Notwithstanding subdivisions (a) and
(b), Pretrial Assessment Services shall not
release...A person who has three or more prior
warrants for failure to appear [(FTA)] within the
previous 12 months.” Appellant has not had three
or more warrants issued for failure to appear.
Appellant notes two instances of bench
warrants being issued; each faulty warrants and

46e
contested. The People have brought an FTA
charge, which Appellant contests; and, is eager to
no longer waives time on this charge and proceed
to trial within the time period afforded in the
State of California proceedings. Appellant also
notes that CA SB 10 does not consider if such
warrants were attempted to be Quashed; or, such
charges are the subject of appeal.
Ca PC §§ 1320.10(f), per California Senate
Bill No. 10 shall read, “review of the person’s
custody status and release pursuant to
subdivision (b) or (c) shall occur without
unnecessary delay, and no later than 24 hours of
the person’s booking. The 24-hour period may be
extended for good cause, but shall not exceed an
additional 12 hours supervision other than
informal probation or court supervision.”
For the aforementioned California state,
and national issues regarding pre-trial liberty,
bail and the move towards the elimination of
monetary encumbrances, a Published Opinion by
the Appellate Court based on an accurate fact
pattern and procedural background; and, proper
application of Boykin / Tahl; as well as review by
the highest court in the state is of paramount
importance, with close review of this case and
controversy a highly suitable opportunity to do so.

CONCLUSION AND REQUEST FOR ORDER
“The Supreme Court does not defer to the
court of appeal’s analysis or decision.” (Smiley u.
Citibank (1995) 11 Cal.4th 138, 146.).” Clearly,
the Court of Appeal has relied on an inaccurate,
and/or partial factual and procedural background,
supported herein (as well as in the Petition for

47e
Rehearing). Once established, or in reasonable
question, as Petitioner posits, Petitioner, now
herein, requests that the Supreme Court
independently examine the record, in its entirety
for arguable issues (Smith v. Robbins (2000) 528
U.S. 259, requesting that the court independently
examine the record for arguable issues is
sufficient to appoint counsel)(“In California,
however, once the court has “gone through” the
record and denied counsel, the indigent has no
recourse but to prosecute his appeal on his own,
as best he can, no matter how meritorious his
case may turn out to be.” However, that is not the
case here, as the Appellate Court has not in fact,
gone through the Record, (Douglas v. California,
372 U.S. 353 (1963)), as put forth herein, as well
as in the Petition for Rehearing citing to clear and
glaring factual errors and other omissions with
the Court of Appeal Opinion.
Petitioner has brought forth the actual
intentions of a Boykin / Tahl analysis when
viewed under the “totality of circumstances”
standard of review; which, a priori, inherently
requires a proper factual and procedural history
for reliance in formulating and issuing an
opinion. The Court of Appeal has failed in such
regard. Defendant-Appellant has not been
afforded a tribunal (as protected by the 7th
Amendment), and had his numerous calendared
Bail Review Motions been timely filed in Writ and
argued, the reasonable probability standard of
review under Boykin / Tahl clearly supports
upholding his attempts at withdrawing his
coerced and involuntary plea of April 23, 2018
entered for the sole purpose to be returned to his
pre-trial liberty, which he was on such day, and

48e
done so on his Own Recognizance with no other
terms and conditions, being allowed to leave the
State of California even, and return for
Sentencing.
Petitioner graciously requests that this
Court overturn the Court of Appeal Opinion and
find in favor of the Petitioner, with a (b) full
remand to the trial court for pre-trial matters, or,
(in priority)
(a)
outright
dismissal for
circumstances including but not limited to (i)
length of time since criminal complaints and plea
and, also (ii) probation conditions are nearly
entirely satisfied as of the date of the fifing of this
Petition for Review), nullifying all proceedings to
date.
If this fifing is deficient in any manner
with any court rule requirements, (e.g. such as
mailing the necessary, number of fifing or service
copies), Petitioner graciously requests that the
Supreme Court issue an order with relative
waiver(s) for each of any and all such items).
In the opening of this case in seeking a
formal Petition for Review, the Supreme Court
has jurisdiction with this fifing.
Dated: September 26, 2019
Respectfully submitted,
/s/ Gavin B. Davis
Gavin B. Davis, Pro Per
Petitioner and Federalist
CERTIFICATION OF WORD COUNT [omitted]
PROOF OF SERVICE [omitted]

If
IN THE COURT OF APPEAL OF THE STATE
OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION ONE
PEOPLE OF THE STATE OF CALIFORNIA,
Plaintiff-Respondent,
v.
GAVIN BLAKE DAVIS,
Defendant-Appellant.
Appeal No.
Sup. Ct. Nos.

D074186
SCD266332
SCD273043

APPEAL FROM THE SUPERIOR COURT OF
SAN DIEGO COUNTY
Honorable Timothy Walsh, Judge
PETITION FOR REHEARING
JOHN LANAHAN
CA Bar Number 133091
501 West Broadway, Suite 1510
San Diego, CA 92101-3526
(619) 237-5498
E-mail: lawnahan@sbcglobal.net
Attorney for Defendant-Appellant

APPENDIX F

2f

INTRODUCTION
Gavin Blake Davis, the petitioner, files this
petition for rehearing, pursuant to Rule 8.268 of
the California Rules of Court for the following
reasons: (1) in finding that Mr. Davis understood
the constitutional rights he was waiving by
pleading guilty, the Court overlooked his
statements in open court that contradicted,
rather that supplemented, the waiver of rights he
had initialed on the change of plea form, and (2)
the Court finds no factual support for Mr. Davis’s
claim that his guilty plea was involuntary
because he believed it was the only way he could
released in bail, where minute orders and his own
statements at the change of plea hearing show
that he believed the only way he would be
released was if he pleaded guilty.

FACTS OVERLOOKED BY THE COURT
In finding sufficient facts to support the
trial court’s denial of Mr. Davis’s motion to
withdraw his guilty plea, the Court gleaned facts
that would support a clear and unequivocal
waiver of Mr. Davis’s constitutional rights.
Although the Court relied upon caselaw that
holds a guilty plea colloquy need not recite the
three constitutional rights required by Boykin v.
Alabama (1969) (1969) 395 U.S. 238 [89 S.Ct.
1709, 23 L.Ed.2d 274] and In re Tahl (1970) 1
Cal.3d 122, which are (1) the right against self­
incrimination, (2) the right to confront and cross
examine witnesses, and (3) the right to a jury
trial, Mr. Davis’s answers during the change of
plea colloquy were often unresponsive.

3f
For example, when asked about his
constitutional rights, the trial court noted only
the right to a jury trial. Mr. Davis answered that
he understood his rights “by the California
Constitution and the jurisdiction of this court.”
That unresponsive answer did not affirm that he
was aware of the rights he was waiving, yet the
trial court once again referred only to the right to
a jury trial in the change of plea form and did not
mention the other two. This was more than a
simple omission. Mr. Davis’s unresponsive
answers could have indicated many possible
things, such as a misunderstanding or a
deliberate evasion of understanding his rights,
either one of which required further clarification
by the trial court. That was missing, and was
error.
Concerning Mr. Davis’s second claim of
error that his guilty plea was involuntary, the
Court mistakenly finds no coercion from
Petitioner’s statement at the time of the guilty
plea that he had not been threatened. The
coercion in this case arose not from direct or
indirect threats, but from being denied his liberty
for an extended period of time on excessive bail
and attempting to regain that liberty via a bail
hearing, calendared three times but then taken
off calendar, thereby supporting his claim that
the only way he could be released from jail was to
plea guilty. There is more than a reasonable
probability had Petitioner been presented with
the alternative of a bail review to regain his
liberty, he would have chosen that as the means
to be released from jail, in order to be at liberty
and still able to contest his case. What was
presented, however, was a desperate man who

V
4f
pleaded guilty only because that was the only way
he could get
The Court’s opinion focuses on Mr. Davis’s
statements that he desired to plead guilty, but
overlooks his statements as to why he agreed to
plead guilty. Mr. Davis stated at the time he
pleaded that as part of the plea agreement, he
had been “promised a return to my liberty today,”
to which the prosecutor added that he had no
opposition to Mr. Davis’s release on bail [12RT
1306-07]. The trial court agreed it would release
Mr. Davis as part of the plea agreement. [12RT
1306]. Mr. Davis reinforced that claim on June 7,
2018, that he was induced to plead guilty in order
to be released from jail. (Declaration in Support of
motion to Withdraw Guilty, pursuant to Penal
Code § 1018, 3CT 813.)
The facts supported his claim were that he
had unsuccessfully attempted to be released on
bail for three times prior to his guilty plea, but
the bail reviews had been taken off calendar, and
are corroborated by the Clerk’s Transcript. The
first bail review was set for November 27, 2017;
then continued to December 1, 2017, then taken
off calendar [3CT 787-789.] On January 10, 2018,
the bail forfeiture ordered on October 10, 2017,
was set aside and the previous bail of $1,000,000
on case number SCD266332 was reinstated. [3CT
790.] On February 26, 2018, another bail review
was ordered for March 2, 2018, and a Pre-trial
Services Report ordered, then taken off calendar.
[3CT 791-792.] On March 2,2018, that bail review
was taken off calendar [3CT 792.].
The Courts mistaken finds no coercion from
Mr. Davis’s statement at the time of the guilty
plea that he had not been threatened. The

5f
coercion in this case arose not from threats, but
from being in jail, and supports his claim that the
only way he could be released from jail was to
plea guilty. The Court distinguished this case
from the vague offer of leniency in People v.
Collins (2009) 26 Cal.4th 297, where the trial
court a jury waiver would be looked upon
favorably at sentencing by noting there was no
such statement in this case. The effect of Mr.
Davis’s guilty plea, however, was far from vague:
his immediate release from jail on his own
recognizance.
Given
Mr.
Davis’s
prior
performance while on bail, bail does not seem to
have been the reason for his release. Had the
prosecutor added that he no longer opposed Mr.
Davis’s release, given that the jail time Mr. Davis
had served by the time he pleaded guilty was
sufficient to support a probationary sentence, Mr.
Davis’s actions could have been construed as
accepting a revised offer from the prosecutor that
would result in this immediate release if he
pleaded guilty. No such reason was given,
however, when the prosecutor was asked by the
trial court if he agreed to Mr. Davis’s release. The
record as it is raises more than a reasonable
probability that Mr. Davis pleaded guilty because
that appeared to be tho nly way he would be
released from jail.
The Court mistakenly characterizes Mr.
Davis’s claim that he was coerced into pleading
guilty as a result of a “nefarious plot,” one that
has no factual support. [Opinion at p. •k'k'k]
Whether such a plot existed is not the basis for
his motion to withdraw his guilty plea. Instead, it
was that as a result of never going to court to
have his bail reinstated despite three attempts to

6f
do so, he believed that the only way to get out of
jail was to plea guilty. The Court notes that Mr.
Davis never stated why his three prior attempts
to have his bail reinstated were taken off
calendar, but that does not contradict this claim
that the only way he thought he could get to court
and get out of jail was to plead guilty. That
resulted in a guilty plea not because he was
guilty, or because he was pleading guilty because
it would result in a probationary sentence, but
because it was the only way he could get out of
jail. That’s an involuntary guilty plea, a
constitutional and structural error, and his
motion to withdraw his guilt plea should have
been granted.
CONCLUSION
For the reasons set forth in this petition,
Gavin Blake Davis petitions the Court to
withdraw its opinion of August 21, 2019.
DATED: September 5, 2019
Respectfully submitted,
John Lanahan
JOHN LANAHAN
501 West Broadway, Suite 1510
San Diego, California 92101-3526
Telephone: (619) 237-5498
Attorney for Defendant-Appellant
CERTIFICATION OF WORD COUNT [omitted]
PROOF OF SERVICE [omitted]

Ig
IN THE COURT OF APPEAL OF THE STATE
OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION ONE
PEOPLE OF THE STATE OF CALIFORNIA,
Plaintiff-Respondent,
v.
GAVIN BLAKE DAVIS,
Defendant-Appellant.
Appeal No.
Sup. Ct. Nos.

D074186
SCD266332
SCD273043

APPEAL FROM THE SUPERIOR COURT OF
SAN DIEGO COUNTY
Honorable Timothy Walsh, Judge
APPELLANT’S OPENING BRIEF
JOHN LANAHAN
CA Bar Number 133091
501 West Broadway, Suite 1510
San Diego, CA 92101-3526
(619) 237-5498
E-mail: lawnahan@sbcglobal.net
Attorney for Defendant-Appellant

APPENDIX G

2g
OF
APPELLATE
STATEMENT
JURISDICTION
This appeal is from the denial of a motion
to withdraw a guilty plea to, and the convictions
and sentence of probation imposed on, one count
of Vandalism over $400, in violation of Penal
Code § 594, subdivisions (a) and (b)(1); one count
of willful disobedience of a court order, in
violation of Penal Code § 166, subdivision (a)(4);
one count of contact by and electronic
communication device with the intent to annoy, in
violation of Penal Code § 653m; and one count of
Intentional and knowing violation of a court
order, in violation of Penal Code § 273.6 in
consohdated cases SCD266332 and SCD266665;
and one cont of failure to appear while on bail, in
violation of Penal Code § 1320.5 in case number
SCD273403 [3CT 694, 712.843], This appeal is
authorized under Penal Code § 1237.5 and Rule
8.304, subdivision (b) of the California Rules of
Court.
ISSUES PRESENTED FOR REVIEW
1. Whether the trial court erred in denying
Mr. Davis’s motion to withdraw his guilty plea
where (a) the plea colloquy failed to establish a
knowing waiver the constitutional rights under
Boykin v. Alabama and In re Tahl (b) the plea
colloquy failed to establish a factual for the crime
of vandalism, and (c) Mr. Davis not adequately
advised as to the collateral consequences of a
felony prior to pleading guilty?
STATEMENT OF THE CASE
Gavin Blake Davis was charged in an
amended information in consolidated case

3g
numbers SCD266332 and SCD267655, with one
count of vandalism over $400, in violation of
Penal Code § 594, subdivision (a) and (b)(1); one
count of resistence of a police officer, in violation
of Penal Code § 148, subdivision (a)(1); ten counts
of intentional and knowing violation of a court
order, in violation of Penal Code § 273.6,
subdivision (a); six counts of willful disobedience
of a court order, in violation of Penal Code § 166,
subdivision (a)(4); and one count of stalking, in
violation of Penal Code § 646.9, subdivision (a).
[1CT 38-43]. He was charged in case number
SC273043 with two counts of failure to appear
while on bail, in violation of Penal Code § 1320.5
[3CT 797-799],
He pleaded guilty to one count of
vandalism over $400, in violation of Penal Code §
594, subdivision (a) and (b)(1); one count of
intentional and knowing violation of a court
order, in violation of Penal Code § 273.6,
subdivision (a); one count of willful disobedience
of a court order, in violation of Penal Code § 166,
subdivision (a)(4); one count of telephone calls or
contact by electronic communication device with
intent to annoy, im violation of Penal Code §
653m, and one count of failure to appear while on
bail, in violation of Penal Code § 1320.5 [3CT 662665, 800-803; 12RT 1310-11]. He later moved to
withdraw his guilty pleas, on June 7, 2018 [13RT
1402-1405, 8CT 809-816],
That motion was denied, and Mr. Davis
was sentenced to three years formal probation on
vandalism, and time served of the failure to
appear [13RT 1405-06, 1430-31, 3CT 796, 843],
Notice of appeal was filed in both cases on June 8,
2018 [8CT716, 804]. The trial court granted a

4g

certificate of probable cause on each case on June
19, 2018 [8CT 729, 817]. 1
STATEMENT OF FACTS
The guilty plea
Gavin Davis, the appellant, was charged
with multiple offenses alleging he damaged a
house that had been jointly owned by him and his
ex-wife. He was charged in consolidated case
numbers SCD266332 and SCD267655, with one
count of vandalism over $400, in violation of
Penal Code § 594, subdivision (a) and (b)(1); one
count of resistence of a police officer, in violation
of Penal Code § 148, subdivision (a)(1); ten counts
of intentional and knowing violation of a court
order, in violation of Penal Code § 273.6,
subdivision (a); six counts of willful disobedience
of a court order, in violation of Penal Code § 166,
subdivision (a)(4); and one count of stalking, in
violation of Penal Code § 646.9, subdivision (a).
[1CT 38-43]. He was charged in case number
SC273043 with two counts of failure to appear
while on bail, in violation of Penal Code § 1320.5
[3CT 797-799],
The cases went on for months of pre-trial
proceedings, but after Mr. Davis’s bail was
revoked for a failure to appear for trial [11RT
1218], and he was in jail for over 200 days, he
agreed on April 23, 2018 to plead guilty to one
count of vandalism over $400, in violation of
Penal Code § 594, subdivision (a) and (b)(1); one
count of intentional and knowing violation of a
court order, in violation of Penal Code § 273.6,
subdivision (a); one count of willful disobedience
of a court order, in violation of Penal Code § 166,
subdivision (a)(4); one count of telephone calls or

5g
contact by electronic communication device with
intent to annoy, in violation of Penal Code §
653m, and one count of failure to appear while on
bail, in violation of Penal Code § 1320.5 [3CT 662665, 800-803; 12RT 1310-11],
During the guilty plea colloquy, Mr. Davis
was asked is had discussed the plea agreement
with his lawyer [12RT 1304]. He answered that
he thought those discussions were privileged
communications, but then states his lawyer had
answered all of his questions. [12RT 1304]. Mr.
Davis also stated that as part of the plea
agreement, he had been “promised a return to my
liberty today, to which the prosecutor added that
he had not opposition to Mr. Davis’s release on
bail [12RT 1306-07]. The trial court agreed that it
would release Mr. Davis as part of the plea
agreement. [12RT 1306].
Mr. Davis was also asked if he understood
“all of your constitutional rights to a jury trial?”
The following colloquy occurred:
THE DEFENDANT: You honor, I understand the
rights by the California Constitution and the
jurisdiction of this court.
THE COURT: I’m asking you if you understand
all of the rights as indicated that you have a jury
trial on your forms?
THE DEFENDANT: Yes, your honor.
THE COURT: And do you give up those rights to
a jury trial and all of the related rights in order to
plead guilty at this time?

6g
THE DEFENDANT: In the State of California,
San Diego County, yes, your honor. [12RT 130607].
Advice on collateral consequences
Also during the plea colloquy, Mr. Davis
was asked if he understood “all the other
potential consequences of your plea as indicated
on the forms,” to which he responded, “[a]s they
are stated on the forms, I believe that I
understand those to the best of my abilities and
resources.” [12RT 1310]. The change of plea form
contained an advisal of immigration consequences
if Mr. Davis was not a United States citizen, as
well as a number of other collateral consequences
that were listed on the form. These were:
consecutive sentences, a prohibition to possess
firearms or ammunition, the offense could be used
to increase a future sentence, and it could be a
prison prior. [3CT663].
Factual bases for the plea of guilty
Concerning the factual basis for the failure
to appear, Mr. Davis admitted that he “was not
[in court] on the date as alleged” after being
ordered to appear in court [12ERT 1311].
Concerning facts in support of the charge of
vandalism, when he was asked if on July 1, 2015,
he “damaged property not your own in a value in
excess of $400,” he replied, “those dates are
incorrect,” and added, “there was only one
incident and it was my own real property.” [12RT
1311]. He also admitted he violated a court order
by contacting a person he was ordered not to
contact, and that between March 1, 2016; and

7g
June 17, 20916, he made a harassing telephone
call. [12RT 1311-12],
Motion to withdraw the guilty plea.
Prior to the sentencing, Mr. Davis filed a
written motion to withdraw is guilty plea, in
which he alleged that he had not been aware of
the collateral consequences of is guilty plea, in
particular that he would be ineligible for a real
estate license. [3CT 723-24, 811-812]. Prior to the
sentencing in open court, Mr. Davis also moved to
withdraw his guilty plea. [13RT 1404]. The court
proceeded to sentencing without ruling on the
motion, on the basis that Mr. Davis’s counsel was
not moving to withdraw the guilty plea, despite
Mr. Davis’s clear intent that he wanted the plea
withdrawn.
The trial court later held a Marsden
hearing to determine if there was a conflict
between Mr. Davis and his counsel of the issue of
the guilty plea [13RT 1410-11]. Counsel stated
that he had advised Mr. Davis it was in his best
interest to plead guilty, and that he has advised
Mr. Davis of all the consequences that could flow
from a plea of guilty. [13aRT 1415].
The court then asked Mr. Davis why he
wanted to withdraw his guilty plea. He answered
that he had not knowingly and intelligently
waived his constitutional rights. [13aRT 1416]. He
also stated he had not be aware of all the
consequences of a guilty plea, but that he since
learned he could lose his real estate license in
California and other states as the result of a
felony conviction. [13aRT 1416]. He claimed his
guilty plea was involuntary because he had been
promised he would be released from jail if he

8g
pleaded guilty [13a RT 1418]. The trial court
indicated its concerns over Mr. Davis’s claim that
he had not been advised of the consequences of
his guilty plea, and Mr. Davis’s lawyer noted that
the change of plea form does not state that a
felony conviction could have an effect on certain
professional licenses. [13Art 1421]. Counsel did
not state that he had informed Mr. Davis of any
collateral consequence not listed on the change of
plea form. Concerning Mr. Davis’s claim that his
guilty plea was not voluntary, Mr. Davis’s lawyer
stated it was part of the plea agreement that he
would be released be released from jail if he
pleaded guilty. [13aRT 1421]. Counsel also stated
that if Mr. Davis successfully completed probation
after eighteen months, he would be able to
withdraw his guilty plea to the sentencing date,
thereby restoring his rights that had been
impacted by the result of a felony conviction. [13a
RT 1421].
The trial court found there was no conflict
between Mr. Davis and his lawyer as a result of
the guilty plea that Mr. Davis sought to
withdraw. [13a RT1424]. Mr. Davis agreed that
he had done some of the things to which he
pleaded guilty, “[b]ut not all of the things I have
been accused of.” [13aRT 1425].
The court resumed the sentencing hearing,
stating it had found no conflict and that Mr.
Davis’s lawyer would continue to represent him.
[13RT 1427]. On case numbers SCD266332 and
SCD267655, the court imposed a sentence of
three years, imposition of sentence suspended,
with the condition that Mr. Davis spend 365 days
in jail, all of which had already been served.

9g
[13RT 1428]. It imposed a sentence of time served
in case number SCD273043. [13RT 1428],
ARGUMENT
I. THE TRIAL COURT ERRED IN
DENYING MR.
DAVIS’S MOTION TO
WITHDRAW HIS GUILTY PLEA WHERE(A)
THE RECORD FAILS TO REVEAL THAT MR.
DAVIS WAS ADVISED AND UNDERSTOOD
HIS CONSTITUTIONAL RIGHTS, (B) THE
PLEA WAS INVOLUNTARY BECAUSE IT WAS
MADE
IN
EXCHANGE
FOR
A
RECOMMENDATION THAT MR. DAVIS BE
RELEASED FROM JAIL, (C) THERE WAS AN
INSUFFICIENT FACTUAL BASIS FOR THE
CRIME OF VANDALISM AND (D) MR. DAVIS
WAS NOT ADVISED OF THE COLLATERAL
CONSEQUENCE OF THE LOSS OF A
PROFESSIONAL LICENSE
A. Standard of Review
B. Applicable facts
1. Guilty plea was made based upon
the promise
Mr. Davis would be released from jail Mr.
Davis entered a guilty plea more than six months
after his bail was revoked for a failure to appear
for trial. [11 RT 1218, 12RT 1303]. During the
guilty plea colloquy, Mr. Davis was asked is had
discussed the plea agreement with his lawyer
[12RT 1304]. Mr. Davis stated that he had had
his bail review pushed off three time but that as
part of the plea agreement, he had been
“promised a return to my liberty today, to which
the prosecutor added that he had not opposition

lOg
to Mr. Davis’s release on bail [12RT 1306-07]. The
trial court agreed that it would release Mr. Davis
as part of the plea agreement. [12RT 1306].
Insufficient advice of constitutional
rights under Boykin/Tahl
Mr. Davis was also asked if he understood
“all of your constitutional rights to a jury trial?”
The following colloquy occurred:
THE DEFENDANT: You honor, I understand the
rights by the California Constitution and the
jurisdiction of this court.
THE COURT: I’m asking you if you understand
all of the rights as indicated that you have a jury
trial on your forms?
THE DEFENDANT: Yes, your honor.
THE COURT: And do you give up those rights to
a jury trial and all of the related rights in order to
plead guilty at this time?
THE DEFENDANT: In the State of California,
San Diego County, yes, your honor. [12RT 130607],
Failure
consequences

to

advise

on

collateral

Also during the plea colloquy, Mr. Davis
was asked if he understood “all the other
potential consequences of your plea as indicated
on the forms,” to which he responded, “[a]s they

llg
are stated on the forms, I believe that I
understand those to the best of my abilities and
resources.” [12RT 1310]. The change of plea form
contained an advisal of immigration consequences
if Mr. Davis was not a United States citizen, as
well as a number of other collateral consequences
that were listed on the form. These were:
consecutive sentences, a prohibition to possess
firearms or ammunition, the offense could be used
to increase a future sentence, and it could be a
prison prior. [3CT663].
Insufficient factual
charge of vandalism

bases

for

the

Concerning the factual basis in support of
the charge of vandalism, when he was asked if on
July 1, 2015, he “damaged property not your own
in a value in excess of $400,” he replied, “those
dates are incorrect,” and added, “there was only
one incident and it was my own real property.”
[12RT 1311].
Reasons to withdraw the pleas stated
prior to sentencing
Prior to sentencing, during a hearing
pursuant to People v. Marsden (1970), Mr. Davis
stated his reasons to withdraw his guilty plea.
The first was that he had not knowingly and
intelligently waived his constitutional rights.
[13aRT 1416]. He also stated he had not be aware
of all the consequences of a guilty plea, but that
he since learned he could lose his real estate
license in California and other states as the result
of a felony conviction. [13aRT 1416]. The trial

12g
court indicated its concerns over Mr. Davis’s
claim that he had not been advised of the
consequences of his guilty plea, and Mr. Davis’s
lawyer noted that the change of plea form does
not state that a felony conviction could have an
effect on certain professional licenses. [13aRT
1421]. Counsel did not state that he had informed
Mr. Davis of any collateral consequence not listed
on the change of plea form.
Mr. Davis also claimed his guilty plea was
involuntary because he had been promised he
would be released from jail if he pleaded guilty,
and also noted in his written motion to withdraw
his guilty plea that he agreed to plead guilty on
after his repeated attempts to review his bail
after it had been revoked were never calendared
[13a RT 1418, 3CT 726, 813]. Mr. Davis’s lawyer
stated it was part of the plea agreement that he
would be released be released from jail if he
pleaded guilty. [13aRT 1421].
C. The trial court erred in refusing to
allow Mr. Davis to withdraw his guilty plea
1. Inadequate waiver of constitutional rights
During the change of plea colloquy, Mr.
Davis was also asked if he understood “all of your
constitutional rights to a jury trial?” The
following colloquy occurred:
THE DEFENDANT: You honor, I understand the
rights by the California Constitution and the
jurisdiction of this court.

13b
THE COURT: I’m asking you if you understand
all of the rights as indicated that you have a jury
trial on your forms?
THE DEFENDANT: Yes, your honor.
THE COURT: And do you give up those rights to
a jury trial and all of the related rights in order to
plead guilty at this time?
THE DEFENDANT: In the State of California,
San Diego County, yes, your honor. [12RT 130607],
This failed to demonstrate that Mr. Davis
was aware of and knowingly and intelligently
waived the constitutional rights he has, as stated
first by the United States Supreme Court in
Boykin v. Alabama, 395 U.S. 238 (1969); and
subsequently adopted by the California Supreme
Court in In re Tahl (1970) 1 Cal.3d 122. These are
(1) the privilege against self-incrimination, (2) the
right to trial by jury, and (3) the right to confront
one’s accusers. Boykin, supra, at p. 242; Tahl,
supra, at p, 132. In Boykin, the Supreme Court
stated it would not find a valid waiver of those
rights from a silent record, and in Tahl the
California Supreme Court required the record
reflect that the accused was informed of and
waived those rights.
The requirement that the waiver of these
three rights had to explicit on the record was
later relaxed by Supreme Court in In re Howard
(1992) 1 Cal4th 1132, in which the California
Supreme Court noted that later decisions of the
United States Supreme Court have not stated the

14g
constitution requires explicit waivers of the three
constitutional rights on the record, but the record
of the guilty plea must show that the waiver of
the three rights was knowing and voluntary. Id.
at p. 1179. In Howard, the issue was whether the
waiver of a trial by jury on the validity of prior
convictions must comply with the waivers
required for a guilty plea under Boykin and Tahl.
The Court found that where the defendant had
been informed of and waived the right to trial by
jury and his right to confront his accusers, but not
explicitly told of the privilege against self­
incrimination, the record was sufficient to show a
knowing and voluntary waiver. Id., at p. 1180.
In this case, however, the only right that
was identified and waived was the right to trial
by jury. [12RT 1307]. The trial court referred to
Mr. Davis’s “your constitutional rights to a jury
trial” and “all of the rights as indicated that you
have to a jury trial on your [change of pleas]
forms,” but the trial court left out the right to
confront his accusers and the privilege against
selfincrimination.
Mr. Davis’s answers did not indicate that
the waiver of those rights was knowing and
voluntary. He first indicated that he the rights
“by the California constitution and the
jurisdiction of the court,” which the trial court
took as unresponsive. [12RT 1307. When he was
asked if he gave up “those rights to a jury trial
and all of the related rights to plea guilty,” Mr.
Davis’s answer “in the state of California, San
Diego County,” was a non sequitur. This failed to
establish a knowing and voluntary waiver of
rights as required by Boykin and Tahl.

15g
2. Failure to advise of collateral consequences
At motion to withdraw his guilty plea, Mr.
Davis stated that a the time of his guilty plea, he
was unaware the effect a felon conviction would
have on his ability to renew is real estate license.
His lawyer stated that he had advised Mr. Davis
of the collateral consequences on the change of
plea form, which made no mention of the effect of
a felony conviction wold have on a professional
license. [13aRT 1421]. The trial court denied this
as a basis to withdraw the guilty plea, because
the effect on a professional license is a collateral,
not direct consequence. [13aRT 1424]. The court
also found a felony conviction would not
necessarily result in a denial of the renewal of his
real estate license, because “a whole other
organization” evaluates that. [13aRT 1424].
It was unrebutted that Mr. Davis was not
advised that as a result of his guilty plea t a
felony, he would not be able to renew his real
estate license.
Although it was not certain that he would
be denied renewal, under Business and
Professional Code § 10177, subdivision (b), the
Real Estate Commissioner may delay the renewal
of a real estate license of anyone who has
[e]ntered a plea of guilty or no contest to, or been
found guilty of, or been convicted of, a felony, or a
crime substantially related to the qualifications,
functions, or duties of a real estate licensee, and
the time for appeal has elapsed or the judgment
of conviction has been affirmed on appeal,
irrespective of an order granting probation
following that conviction, suspending the
imposition of sentence, or of a subsequent order
under Section 1203.4 of the Penal Code allowing

16g
that licensee to withdraw his or her plea of guilty
and to enter a plea of not guilty, or dismissing the
accusation or information.
The power to do so, as the statute makes
clear, survives long after the direct consequences
of the criminal conviction are over, enduring even
a successful motion to withdraw the plea, which
was an option under Mr. Davis’s plea agreement.
[13aRT 1421] Professional license bars frequently
persist long after the other consequences of the
underlying offense. (People v. Villa (2009) 45
Cal.4th 1066, 1071.) The effect of the professional
license bar, as it directly places a permanent bar
to Mr. Davis’s possible livelihood, is so severe that
the direct/collateral consequences distinction
relied upon by the trial court in denying Mr.
Davis’s motion to withdraw his guilty pleas, like
the formerly “collateral” consequence of
deportation for non-citizens, should not apply.
(Padilla v. Kentucky (2010) 559 U.S. 356, 365.)
3. Involuntary nature of the guilty plea
At the guilty plea colloquy, Mr. Davis
stated that another reason he was pleading guilty
was to that he could be released on bail [12RT
1305]. The trial court as the prosecutor of that
was part of the plea agreement, and when the
prosecutor stated it was, the trial court agreed
make it part of the plea agreement. [12RT 1306.]
Mr. Davis later stated, both in his written motion
to withdraw his guilty plea and before the trial
court at sentencing, that the reason he agreed to
plead guilty was because he had tried
unsuccessfully to get a bail review calendared
three times in the last six months and a guilt plea

17g

^

seemed the only way to be released from jail.
[13al418, 3CT 719].
In addition to the requirement that a guilty
plea should show an knowing and intelligent
waiver of constitutional right to a jury trial, the
ability to confront witnesses, the privilege against
self incrimination, the guilty plea should reflect
that the guilty plea is freely and voluntarily
made. Penal Code § 1192.5 also requires that the
guilty plea be “freely and voluntarily made.”
In this case, it was not. There was no
question that Mr. Davis wanted to plead guilty,
hut the problem was why. It was not because he
wanted to admit his guilt, or that he was
motivated to receive a lesser sentence, but
because he wanted to get out of jail and thought a
guilty plea was the only way to do it. The
circumstances indicate that the motivating factor
to cause Mr. Davis to plea guilty was is belief that
the other way he has could get out of jail, a bail
review, was constantly thwarted. That belief was
confirmed when the prosecutor stated he would
not oppose Mr. Davis’s release on bail if he
pleaded guilty, and the judge agreed to make it
part of the plea agreement. His belief that a
guilty plea was the only way to get out proved
correct, and he was released.
What this shows is that Mr. Davis pleased
guilty in exchange for a promise of some tangible
benefit. His guilty plea was knowing because he
recognized it was the way to get out of jail; but it
was involuntary because he pleaded guilty
because he thought it was the only way he could
get out of jail.
As such, it violated federal and California
Due Process. (People v. Collins (2009) 26 Cal.4th

18g
297, 302, 307-308.) A guilty plea obtained by a
promise of benefit or leniency is a structural error
that requires no showing of prejudice. (Collins,
supra, at pp. 311-312.)
Failure to obtain a factual basis
Penal Code § 1192.5 also requires that the
trial court have a “factual basis for the plea.” In
this case, in an effort to have a factual basis for
the guilty plea to count one of case number
SCD266322 and SCD267655, felony vandalism,
the trial court asked Mr. Davis if, on July 1, 2015,
he damaged property not his own in excess of
$400. [12RT 1311]. Mr. Davis responded, “there is
only one incident and it was my own real
property.” [12RT 1311].
This statement, which negates on of the
elements of felony vandalism, failed to provide a
factual basis for the guilty plea to the only felony
charged, and the guilty plea to that offense should
be vacated.
CONCLUSION
For the reasons set forth in this brief,
Gavin Blake Davis asks his Court to vacate his
guilty pleas and remand the case for further
proceedings.
Respectfully submitted,
DATED: November 19, 2019
JOHN LANAHAN
550 West C Street, Suite 1670
San Diego, California 92101-8557
Telephone: (619) 237-5498

I9g
Attorney for Defendant-Appellant
CERTIFICATION OF WORD COUNT (omitted)
PROOF OF SERVICE (omitted)

lh
IN THE COURT OF APPEAL OF THE STATE
OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION ONE
PEOPLE OF THE STATE OF CALIFORNIA,
Plaintiff-Respondent,
v.
GAVIN BLAKE DAVIS,
Defendant-Appellant.
Appeal No.
Sup. Ct. Nos.

D074186
SCD266332
SCD273043

APPEAL FROM THE SUPERIOR COURT OF
SAN DIEGO COUNTY
Honorable Timothy Walsh, Judge
APPELLANT’S REPLY BRIEF
JOHN LANAHAN
CA Bar Number 133091
501 West Broadway, Suite 1510
San Diego, CA 92101-3526
(619) 237-5498
E-mail: lawnahan@sbcglobal.net
Attorney for Defendant-Appellant

APPENDIX H

2h
ARGUMENT
I. THE TRIAL COURT ERRED IN
DENYING MR.
DAVIS’S MOTION TO
WITHDRAW HIS GUILTY PLEA WHERE (A)
THE RECORD FAILS TO REVEAL THAT MR.
DAVIS WAS ADVISED AND UNDERSTOOD
HIS CONSTITUTIONAL RIGHTS, (B) MR.
DAVIS WAS NOT ADVISED OF THE
COLLATERAL CONSEQUENCE OF THE LOSS
OF A PROFESSIONAL LICENSE (C) THE PLEA
WAS INVOLUNTARY BECAUSE IT WAS MADE
IN EXCHANGE FOR A PROMISE MR. DAVIS
BE RELEASED ON BAIL, AND (D) THERE
WAS AN INSUFFICIENT FACTUAL BASIS
FOR THE CRIME OF VANDALISM
Introduction:
Respondent’s brief (hereafter referred as
“RB”) lists in its “Statement of Facts” a report of
the offenses allegedly committed by Mr. Davis.
(RB, p. 7.) These alleged “facts” are irrelevant to
the claim raised on appeal, which is not whether
Mr. Davis committed the offenses charged, but
whether his guilty plea was properly taken by the
trial court. 1 Respondent relies upon these “facts”
evidence to bolster his claim that the failure to
obtain a factual basis for Mr. Davis’s guilty plea
was harmless. (RB, p. 20.) These factual
allegations are unverified, and therefore may not
be relied upon, because they were neither
admitted to by Mr. Davis nor presented to a
Grand Jury or at a Preliminary Hearing, which
had been waived. (1CT 50.) Mr. Davis had also
disputed the accuracy of the probation report
prior to sentencing as, “having numerous
falsehoods in it, as well as terms and conditions,

3h
themselves that are unacceptable to the
Defendant.” (3CT 811-812, Declaration in Support
of Motion to Withdraw Guilty Plea, pursuant to
Penal Code § 1018, dated June 7, 2018.)
Of the facts that are relevant to this to this
appeal, the Respondent notes that on October 10,
2017, Mr. Davis’s bail was forfeited and a warrant
was issued for his arrested. (RB, p. 9.) He
remained in custody until April 23, 2018. (RB, p.
9.) The Respondent does not dispute that between
the time the warrant issued on October 10, 2017;
to the time he was released on his own
recognizance (O/R) on April 23, 2018, he made
numerous attempts to review his bail, which was
effectively mooted by his release O/R after he
pleaded guilty. The first bail review was set for
November 27, 2017; then continued to December
1, 2017, then taken off calendar [3CT 787-789.]
On January 10, 2018, the bail forfeiture ordered
on October 10, 2017, was set aside and the
previous bail of $1,000,000 on case number
SCD266332 was reinstated. [3CT 790.] On
February 26, 2018, another bail review was
ordered for March 2, 2018, and a Pre-trial
Services Report ordered, then taken off calendar.
[3CT 791-792.] On March 2, 2018, that bail
review was taken off calendar [3CT 792.]
On April 23, 2018, the date of the guilty
plea, the court inquired, “have there been any
other promise made to you of have there been any
threats made to you to get you to plead guilty?”
Mr. Davis responded, “I was promised a return to
my liberty today, had bail review pushed off three
times . . . there was that additional promise that I
would be - subject to the pleas, my liberty would
be returned today, April 23rd, if not, then the

4h
pleas in their entirety are null and void.” (12 RT
1305-1306.) This is clear and convincing “prima
facie evidence that proves that Mr. Davis was
induced to enter into the Plea in direct exchange
for his pre-trial liberty. (3CT 815.)
A. Insufficient advice of constitutional
rights under Boykin /Tahl
The Respondent argues that because Mr.
Davis initialed the change of plea form which
listed the right to a jury trial, the right to
confront an crossexamine witnesses, and the right
to remain silent during a trial; and that his
lawyer stated he had reviewed the form with Mr.
Davis, there was an adequate record to show that
he understood an waived those rights. (RB, pp.
10-11.)
Whatever inference these may have been
created to support a finding of an adequate
advisal of right was dispelled, however, by the
following colloquy:
THE DEFENDANT: You honor, I understand the
rights by the California Constitution and the
jurisdiction of this court.
THE COURT: I’m asking you if you understand
all of the rights as indicated that you have a jury
trial on your forms?
THE DEFENDANT: Yes, your honor.
THE COURT: And do you give up those rights to
a jury trial and all of the related rights in order to
plead guilty at this time?

5h
THE DEFENDANT: In the State of California,
San Diego County, yes, your honor. [12RT 130607].
That answer is, at best, ambiguous. It can
be construed as his knowing waiver of his right to
a jury trial and other “related” (but unspecified)
rights in San Diego County, but not what those
other “related”rights were. Even assuming Mr.
Davis was being deliberately obfuscatory, this is
precisely why the trial court should have clarified
his answers by a recitation of the enumerated
constitutional rights he was waiving by pleading
guilty. Contrary to the Respondent’s claim that
“[tjhere is nothing in the record suggesting he did
not understand those rights,” there was a failure
of the trial court to explain the rights Mr. Davis
was waiving and whether he understood them.
The burden was on the trial court to advise Mr.
Davis of the rights he was waiving and whether
he understood them prior to taking the guilty
plea, and the record fails to do that.
Although there is no formula for advising a
defendant of constitutional rights (People v.
Wharton (1991) 53 Cal.3d 522, 582.), the record
must show direct evidence, given the totality of
the circumstances, that Mr. Davis was fully
aware of his rights. (People v. Murillo (1995) 39
Cal.App.4th 1298, 1303-1304.) In this case Mr.
Davis’s response to the trial courts questions, and
the trial court’s failure clarify those answers, are
insufficient to show a knowing and voluntary
waiver.
B. Failure
consequences

to

advise

on

collateral

6h
Respondent relies upon pre-Padilla cases to
argue that the trial counsel was under no duty to
inform Mr. Davis that a collateral consequence of
his guilty plea would be a delay of the renewal of
his real estate license. The United States
Supreme Court in Padilla v. Kentucky, (2010) 559
U.S. 356, 365 [130 S.Ct. 473, 176 L.Ed.2d 284],
refused to apply the direct/collateral consequence
distinction
in
determining
“reasonable
professional assistance” as required by the Sixth
Amendment. Claim of ineffective assistance in
Padilla arose from trial counsel’s misadvise that
a plea of guilty to an aggravated felony under 8
U.S.C. § 1101(a)(43) would subject Padilla to
deportation without cancellation of removal. In
Padilla, the Court noted there was a close
connection with the criminal process for the non
citizen, and from that the
Respondent argues that immigration
consequences must be explained prior to a guilty
plea because deportation is an “inexorable or
automatic” consequence, but the loss of a real
estate license as a result of a felony conviction is
not because that loss is triggered by the actions of
the Real Estate Commissioner. (RB, p. 14.) In
either case, however, the uniformed consequence
of the felony conviction is not automatic. It is
based instead upon the actions of another entity,
U.S. Immigration and Customs Enforcement
(ICE) or the Real Estate Commissioner, in
response to that felony conviction.
In essence, the Respondent distinguishes
this case from Padilla because the consequence,
loss of residency status, is more severe the loss of
livelihood as a result of the loss of a real estate
license. In either case, however the effect is

7h
severe, and the result of conduct by trial counsel
that fell below the minimum level of professional
conduct under Strickland v. Washington (1984)
466 U.S. 668, 689 [104 S.Ct. 2052, 80 L.Ed.2d
674]. (Padilla, supra, 559 U.S. at p. 365.) The
Respondent argues there was no prejudice from
trial counsel’s failure to advise Mr. Davis of this
consequence, because Mr. Davis could have
researched and found it out for himself. (RB, p,
15.) This transfers the duty advise a client of the
legal consequences of a felony conviction from the
lawyer to the client, contrary to Padilla or any
other case arising from either misadvise by
counsel or the failure to advise. See Lafler v.
Cooper (2012) 566 U.S. 156 [132 S.Ct. 1376, 132
L.Ed.2d 398]. Under such a theory, trial counsel
would never be found ineffective for failing to
advise a client of a severe collateral consequence,
because the client could have found for
her/himself that consequence.
C. Involuntary nature of the guilty plea
Respondent argues that Mr. Davis’s plea of
guilty of guilty was voluntary “under the totality
of the circumstances.” (RB, p. 16.) Respondent
relies upon Mr. Davis’s expressed desire the plea
guilty on April 23, 2018, as an indication his
guilty plea was voluntary. (Respondent’s Brief, p.
16.) As noted in Mr. Davis’s opening brief,
however, the question was why he was willing to
plead guilty, based upon his belief that the only
way he could be released on bail was to plead
guilty, given that his numerous attempts to
appear for a noticed bail review hearing had been
unsuccessful. Mr. Davis acknowledged on April

8h
23, 2018, and again on June 7, 2018, that he was
induced to plead guilty in order to be released
from jail. (Declaration in Support of motion to
Withdraw Guilty, pursuant to Penal Code § 1018,
3CT 813.) Respondent argues that Mr. Davis
should have known he would not be released from
custody “until the case was resolved,” and the his
custodial status was “a circumstance entirely of
his own making.” This argument, however,
reinforces Mr. Davis’s claim that his guilty plea
was coerced.
The supposed concern that Mr. Davis
would fail to appear would not have been
alleviated by him pleading guilty, but instead
would likely his motive for not appearing for
sentencing. Any remaining concern that he would
fail to appear after his release on April 23, 2018,
is dispelled not only by his release O/R, but also
that the court allowed him to travel to Texas
while the case was travel to Texas while the case
pending. (12RT 1313, 3CT 841.)
Instead of arguing that Mr. Davis be
released on an increased bail to insure he
appeared for sentencing, the prosecutor agreed,
and the trial court allowed him, to be released
O/R if he pleaded guilty. The effect of such a
bargain was to condition his release solely upon
his guilty plea, unrelated to the reasons why his
bail had been revoked. It was intended to coerce
him to plead guilty so he could get out of jail, and
it succeeded.
Respondent seeks to distinguish this case
from the implied leniency in People v. Collins
(2009) 26 Cal.4th 297, 302, 307-308, where the
trial court indicated that the jury waiver would be
considered favorably at sentencing. (RB, pp. 17-

9h
18.) The effect, however, of premising Mr. Davis’s
liberty upon a guilty plea, was the same. Unlike
the bargaining allowed during plea negotiations,
where the prosecutor can make a more favorable
offer, recommend a lower sentence, or dismiss or
not file more serious charges in exchange for a
plea of guilty, in this case the only thing that
caused Mr. Davis to plead guilty was not a
different offer, or reduced charges even, but this
freedom. His release O/R was conclusive proof
that his decision to plead guilty was on the
promise that he would regain his liberty if he did
so. This rendered his guilty plea involuntary, a
structural defect that requires no showing of
prejudice. (Collins, supra, at pp. 311-312.) As
noted in Mr. Davis’s opening brief, “guilty pleas
obtained through ‘coercion, terror, inducements,
subtle or blatant threats’ . . . are involuntary and
therefore illegal.” {People v. Sandoval)
D. Failure to obtain a factual basis
Respondent argues that the written plea
agreement supports a factual basis where it
states that Mr. Davis “damaged property not his
own in a value in excess of $300.” (RB, p. 18.)
That written statement was insufficient, however,
because it failed to state when the crime occurred,
a fact the trial court clarified during the change of
plea colloquy. (12RT 1311.) Mr. Davis, however,
admitted to only one incident when he damaged
“my own personal property.” (12RT 1311.) The
charge in this case alleged that Mr. Davis
damaged community property of him and his exwife, but his admission that it was his did not
match that allegation. The trial court made not

ICh
effort to reconcile his statement with the factual
allegation that he vandalized his exwife’s
property, and therefore is no factual basis for
felony charge of vandalism.
Respondent argues this claim is not
cognizable on appeal, because a guilty plea waives
challenges to the sufficiency of the evidence or
admissibility of evidence on appeal, or procedural
irregularities in the proceedings, citing People v.
Turner (1985) 171 Cal.App.3d 116, 125; and
People v. Voit (2011) 200 CaLApp. 4th 1353; but
acknowledges contrary authority in People v.
Marlin (2004) 124 CaLApp. 4th 559. (RB, p. 19.)
The Court in Voit explained that a
defendant is precluded from rising on appeal that
the facts admitted or stipulated to were
inaccurate, and relied upon this Court’s decision
in People v. Westbrook (1996) 43 Cal.App.4th 220,
223-224. In Westbrook, admitted to the drug
quantity and stipulated to the grand jury
testimony that was used to impose a sentencing
enhancement, by later challenging the weight or
existence of drugs. This Court found that the
admission and stipulation at the time of the
guilty plea foreclosed challenging the sentencing
enhancement on appeal. In this case, by contrast,
there was an explicit rejection that the Mr. Davis
damaged property of another and no stipulation
to other evidence to prove that necessary element.
As the Court in Voit recognized, the trial court,
not the Court of Appeal, was charged with
determining if there was a necessary factual basis
for the plea. (Voit, supra, 200 Cal.App.4th at p.
1365-66.) In this case, there was not.
As noted in Mr. Davis’s opening brief, “a
court must find a factual basis for a negotiated

llh
plea of guilty or no contest before accepting it.”
(Penal Code § 1192.5; People v. Holmes (2004) 32
Cal.4th 432, 438-442.) If the court questions
defendant about the factual basis, it may develop
the factual basis for the plea on the record by
defendant describing the conduct giving rise to
the charge, or questioning defendant about the
detailed factual basis described in the complaint
or written plea agreement. If the court questions
defense counsel about the factual basis, counsel
may stipulate to a particular document that
provides an adequate factual basis, such as a
complaint, police report, preliminary hearing
transcript, probation report, grand jury transcript
or written plea form. (Holmes, 32 Cal.4th at p.
442.) Many courts ask the prosecutor to recite a
brief factual statement, which should include all
elements of the crime and refer to the police
report, then ask defense counsel to agree to these
facts.
In this case, the trial court did asked
questions based upon what it believed was an
incomplete factual basis as stated in the change
of plea form.
It attempted to determine the date and
number of times Mr. Davis damaged the property
of another. He answered that he damaged
property on only on date ans that it was his
property. That answer required a followup
question that was never asked, whether that
property was also the community property of his
exwife none as asked. There was no stipulation,
as was done in Westbrook, to a Preliminary
Hearing or Grand Jury Transcript, police or
probation report when the guilty plea was taken.
When the probation report, prepared after the

12h
guilty plea, was filed, Mr. Davis disputed it. Any
of the permissible means to establish as factual
basis for the vandahsm charge was missing, and
Mr. Davis’s guilty plea should be vacated for that
additional reason.
D. Prejudice
As noted supra in this reply, the only
discussion of prejudice by the Respondent is in
the context of trial counsel’s failure to advise Mr.
Davis of collateral consequences, which the
Respondent argues was non-prejudicial because
Mr. Davis could have researched and found it out
for himself. (RB, p, 15.) This is not the correct
standard of prejudice, because under such a
theory, trial counsel would never be found
ineffective for failing to advise a client of a severe
collateral consequence, because the client could
have found for her/himself that consequence.
Respondent does not address the standard
of prejudice, because he argues there was not
error. There was, and Mr. Davis will repeat it in
this reply. An involuntary guilty plea is a
structural error that requires no showing of
prejudice. (People v. Collins, supra, at pp. 311312.) The failure of the record to show that Mr.
Davis knowingly and intelligently waived his the
privilege against self-incrimination under the
Fifth Amendment, and his rights to confrontation
and compulsory process under the Sixth
Amendment, and to a jury trial under the
Seventh Amendment, as required by Boykin v.
Alabama and In re Tahl, are constitutional
violations that are prejudicial unless shown to be
harmless beyond a reasonable doubt. (Chapman
v. California (1967) 386 U.S. 18, 24 [93 S.Ct.

13h
1038, 35 L.Ed.2d 297].) It this case, the record is
deficient to show a knowing and intelligent waive
of the right to confrontation and compulsory
process
and the
privilege
against
self
incrimination, a violation that taints off Mr.
Davis’s convictions, a separate basis to vacate all
convictions and remand to the trial court for
further proceedings.
The failure of trial counsel to advise Mr.
Davis of the collateral consequences of a felony
conviction on his ability to have a real estate
license is a violation of his right to effective
assistance
of counsel under the
Sixth
Amendment, under Padilla v. Kentucky, supra,
559 U.S. at p. 367 [130 S.Ct. 473, 176 L.Ed.2d
284], and there is a reasonable probability that
counsel’s failure to advise him of that
consequence caused him to plead guilty, a
prejudicial error even if Mr. Davis cannot show he
wold have prevailed had he gone to trial. (Lee v.
137 S.Ct. 1958, 1966U.S.
United States,
1967 [198 L.Ed.2d 476.])
The failure to establish a factual basis, as
required by Penal Code § 1192.5, is a violation of
a statute that is governed by California’s
“miscarriage of justice” standard. (California
Constitution, Article VI, § 13; People v. Watson
(1956) 46 Cal.2d 818.) Under this test, reversal is
mandated when there is a reasonable probability
that the error affected the jury’s verdict. A
“‘probability’ in this context does not mean more
likely than not, but merely a reasonable chance,
more than an abstract possibility.” (College
Hospital Inc. v. Superior Court (1994) 8 Cal.4th
704, 715.) Under that test, it is clear that the
factual basis for the plea of guilty to vandalism of

14h
more than $400 worth of damage failed to prove
the necessary element of damage to the property
of another, and that conviction mus be vacated
and remanded for further proceedings.
CONCLUSION
For the reasons set forth in this reply and
his opening brief, Gavin Blake Davis asks his
Court to vacate his guilty pleas and remand the
case for further proceedings.
DATED: March 25,2019
Respectfully submitted,
John Lanahan
JOHN LANAHAN
550 West C Street, Suite 1670
San Diego, California 92101-8557
Telephone: (619) 237-5498
Attorney for Defendant-Appellant
CERTIFICATION OF WORD COUNT [omitted]
PROOF OF SERVICE [omitted]

(

li
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF SAN DIEGO
CENTRAL DIVISION, CENTRAL
COURTHOUSE, 1100 UNION ST,. SAN DIEGO,
CA 92101
FOR COURT USE ONLY
FILED [stamp]
JUN 19 2018
By: A. Tenorio, Clerk
PLAINTIFF
THE PEOPLE
DEFENDANT
GAVIN B. DAVIS
SUPERIOR COURT CASE NUMBER
SCD266332
CERTIFICATE OF PROBABLE CAUSE
(CRIMINAL)
A judgment of conviction upon a plea of
guilty or nolo contendere, or an admission of
violation of probation, was entered in the aboveentitled case on 4-23-18 and the defendant was
sentenced on 6-7-18. The defendant submitted a
Notice of Appeal and Request for Certificate of
Probable Cause on 6/8/18. The court finds
defendant has shown reasonable constitutional,
jurisdictional, or other grounds for appeal
relating to the legality of the proceedings and
certifies that there is probable cause for an appeal
from the referenced judgment.
APPENDIX I

i
2i

DATE: 6/19/18
Timothy R. Walsh
TIMOTHY R. WALSH, Judge of the Superior
Court
Cal. Rules of Court Rule 8.304(b)
Cal. Penal Code § 1237.5

Ij

By: M. Danie-Ison, Deputy

Gavin B. Davis, Pro Per
615 C Street, #325
San Diego, CA 92101
858.876.4346
gbdproper@mail.com
SUPERIOR COURT OF THE STATE OF
CALIFORNIA COURT OF APPEAL FOR THE
FOURTH APPELLATE DISTRICT DIVISION 1
[STATE OF CALIFORNIA]
Plaintiff-Respondent,
vs.
GAVIN B. DAVIS
Defendant-Petitioner.
Case No.:
NOTICE OF APPEAL
STATEMENT OF APPEAL
PROBABLE CAUSE PRESENTED
PURSUANT TO Pen. Code, §1237.5
APPEAL FOR
Case no.: SCD266332, SCD273043
Date:
Time:
Courtroom:

APPENDIX J

2j
PLEASE TAKE NOTICE, that, Defendant,
Mr. Gavin B. Davis, hereby appeals from the
order or judgment entered on June 7, 2018, in
Case No.: SCD266332, and SCD273043, Superior
Court of California - San Diego County.
This appeal follows from a guilty plea
dually related to: (i) the sentence or other matters
occurring after the plea (April 23, 2018) per Cal
Rules of Court, rule 31 ( d); and, (ii) relating to
the validity of the plea, as the Defendant had
requested to withdraw his plea for good cause
prior to Sentencing on June 7, 2018; which was
unlawfully denied.
This appeal is filed Pro Per, however,
Defendant's trial counsel, the professional law
firm of Ronis & Ronis, and attorney of record on
June 7, 2018, Mr. Jane E. Ronis (SBN# 51450),
has noted orally on record at least one reason (see
pg. 2-3, 11 2 (iii) below for additional summary
detail) in support of the Defendant's several
reasons, each valid on their own, prima facie, for
withdraw of his plea, which the court erred in
denying; and, whereby, itself, upon this Court
reviewing the oral record of June 7, 2018,
qualifies as third party probable cause pursuant
to Pen. Code, § 123 7 .5.
This Notice of Appeal, is succinctly drafted,
though also constitutes the Defendant's
Statement of Appeal, limited in scope, in such
that, this Appeal is specific to the trial court's
errors in not granting the Defendant withdraw of
his plea, thereby, subjugating his due process;
without prejudice, to the Defendant's positions on
other errors in the lower court proceedings, and
fully preserving, while tolling, such claims on
appeal, if this Court, for any reason, does not

3j
reverse the lower court's denial of the Defendant's
withdraw of his plea. Given this limited scope
appeal, and with the additional information
provided below, and via attachment, or via
citation, this embedded Statement of Appeal is
Rule 184(b) complaint under the California Rules
of Court.
Generally, the following points are to be
raised in this appeal:
1. On June 7, 2018, the trial court (San
Diego
County,
Dept.
1102)
prior
to
commencement of the Sentencing Hearing in
SCD266332 on such day, erred in not taking
Judicial Notice, and Lodgment of the following
collateral attack and cross-action in the United
States District Court for the Southern District of
California (USDC SD Cal), case no.: 17-654, Davis
v. SDDA et. al., respectfully requested for
submission by one of the Defendant's trial
attorneys, Mr. Jan E. Ronis of Ronis & Ronis.
Such cross-action includes six (6) 42 U.S.C. § 1983
claims (17-654, Doc. 72, Amended Complaint,
May 14, 2018, pending); against the Prosecution,
for violations, generally related to his 4th and 8th
Amendment rights, a priori; and, secondarily, due
process violations under the 5th and 14th
Amendments. Such request for Notice and
Lodgment also included USDC SD Cal, 18- 866,
Davis v. San Diego Sheriff's Dept., opened on May
4, 2018, after the Defendant was unlawfully
detained pre-trial, for approximately six (6)
months, and whereby during this period, his
Access to the Courts was unconstitutionally
Denied in multiple capacities, including but not
limited to such in a class capacity, moving under
Fed. R. Civ. P. (FRCP) 23 for class counsel

4j
(pending); as also sought in Defendant's (plaintiff
therein) Partial Summary Judgment thereof
under FRCP 56 (18-866, Doc. 6, filed on May 29,
2018).
2. On June 7, 2018, the trial court, prior to
commencement of the Sentencing Hearing in
SCD266332 on such day, erred in not accepting
for filing with the trial court, a prepared
Declaration of the Defendant's formally
withdrawing his Plea Bargain of April 23, 2018
for good cause, while he was unlawfully
incarcerated, pre-trial. Defendant's Declaration,
and withdraw of the Plea Bargain for good cause
is attached hereto, and includes but is not limited
to:
(i) not freely, knowingly and intelligently
waive his constitutional rights;
(ii) not being aware of all the consequences
of the plea, as there is no way to know, with
certainty and precision, as required via full
disclosure, precisely what the terms of the
Sentencing and Probation will be at the time of
entering the Plea;
(iii) learning subsequent to the initial,
coerced, entrance of the Plea on April 23, 2018,
that the Defendant's professional licensing is in
no uncertain jeopardy, which his attorney of
record on June 7, 2018, Mr. Jan E. Ronis (Ronis &
Ronis) at Sentencing, admits on record (sealed,
without purvey of the court or the prosecution,
requiring unsealing for the Appellate Court,
solely, hereitr), hel '"did not discuss with the
Defendant prior to entering into the Plea; or,
separately, prior to Sentencing;
(iv) Defendant was indirectly threatened,
as implied on record on April 23, 2018 to enter

5j
into the Plea Bargain; and, stated, more explicitly
(during sealed portion of June 7 proceeding) by
the Defendant on June 7, 2018; and,
(v) Defendant acknowledged on each of
April 23, 2018, and, again, on June 7, 2018, that
there was a "special condition" regarding his
entering of the Plea on April 23, 2018, that being
a return to his pre-trial Liberty (itself the subject
of collateral attack, USDC SD Cal, 17-654).
Defendant holds such as a material inducement.
While this Court, on this specific point,
withstanding the validity of the aforementioned
separate points, could find that the Defendant
had available remedy through bail review
motions while he remained detained pre-trial for
approximately six (6) months on Excessive and
Punitive bail, Defendant notes, that, there were
at least three (3) bail review hearings on calendar
during this period of detainment, in which, his
counsel, Ronis & Ronis, never filed the
appropriate Motion; or, argued it. As such, this is
also grounds for a claim of the ineffective
assistance of counsel, a common legal ground for
withdrawing a plea.
3. The Reporter's Transcript from June 7,
2018, during the closed portion of the proceeding
(required for unsealing), notes certain of these
positions put forth by the Defendant in
requesting to withdraw his plea; which, the trial
court judge, erred, in denying such request.
4. Defendant notes that if you plead guilty
or no contest because you are threatened, coerced
or lured (i.e. inducement) into doing so, the court
should grant your Motion to Withdraw a Plea.
This is because California law provides that
guilty pleas must be entered into freely and

6j
voluntarily. In People v. Sandoval (2006) 140
Cal.App.4th 124, it holds, on the long-established
rule that "guilty pleas obtained through 'coercion,
terror, inducements, subtle or blatant threats' are
involuntary" ... and are therefore unlawful.
5. On June 7, 2018, the trial court, erred in
not accepting the Defendant's withdraw of his
guilty plea on multiple grounds. Pursuant to
California Rule of Court, Rule 31, the following
papers not included in the normal record of
appeal are necessary to properly determine these
points on appeal:
(i) The Declaration of the Defendant, as
attached hereto, withdrawing his Plea, that was
not admitted by the trial court on June 7, 2018;
(ii) The sealed Reporter's Transcript from
the June 7, 2018 Sentencing Hearing, closed to
the courtroom, and, to the prosecution, at the
court's direction; requested to be unsealed to the
Appellate Court; but, still sealed from the
prosecution, for good cause; and,
(iii) If desired, for example, if the several
valid reasons noted herein, or upon substantive
review by this Court, are found to be insufficient,
for any reasons, then the lodgment of the
collateral attack (USDC SD Cal, 17-654; and 18866) and cross-action, in the Court's discretion.
Defendant, at present, acknowledges, that the full
record, is not necessary and would overly burden
this Court, if called, given the appeal, herein, is
solely regarding the withdraw of the Defendant's
plea, in order to be afforded proper due process,
and move back into pre-trial in SCD266332 (e.g.
Pitchess Motion, not heard); and, no longer waive
time in SCD273043, moving timely to trial,
though anticipating a dismissal at a Preliminary

7j
Hearing. Appellate Court must Order the
unsealing, for itself, and the Petitioner, solely, the
Reporters' Transcript of June 7, 2018, in question
before this Court; as brought forth, herein this
Appeal.
Dated: June 8, 2018
Gavin B. Davis
Mr. Gavin B. Davis, Pro Per
615 C Street, #325
San Diego, CA 92101
858.876.4346
gbdproper@mail.com

8j
SUPERIOR COURT OF THE STATE OF
CALIFORNIA COURT OF APPEAL FOR THE
FOURTH APPELLATE DISTRICT DIVISION 1
[STATE OF CALIFORNIA]
Plaintiff-Respondent,
vs.
GAVIN B. DAVIS
Defendant-Petitioner.

Case No.:
ATTACHMENT TO
NOTICE OF APPEAL;
STATEMENT OF APPEAL;
PROBABLE CAUSE PRESENTED
PURSUANT TO Pen. Code, §1237.5
DEFENDANT'S FORMAL WITHDRAW OF
PLEA APPEAL FOR
Case no.: SCD266332, SCD273043
Date:
Time:
Courtroom:

9j
Gavin B. Davis, Pro Per
615 C Street, #325
San Diego, CA 92101
858.876.4346
gbdproper@mail.com
SUPERIOR COURT OF THE STATE
CALIFORNIA SAN DIEGO COUNTY

OF

[STATE OF CALIFORNIA]
Plaintiff,
vs.
GAVIN B. DAVIS
Defendant.
Case No.: SCD2666332, SCD273043
DECLARATION OF DEFENDANT UNDER
CA PC§ 1018, WITHDRAWING PLEAS
Date: June 7, 2018
Time: 1 :30 p.m.
Courtroom: 1102, Hon. Timothy R. Walsh
INTRODUCTION
Defendant, Mr. Gavin B. Davis, has
already unequivocally withdrawn his Plea
Bargains, in SCD266332 and SCD273043 as
entered before the court, on April 23, 2018,
outside of State of California court, for Good
Cause, as shown, herein. Defendant now moves in
'open court' for such withdraw of the pleas as
required under Ca PC §1018, as follows:

iQi
STATEMENT OF FACTS AND SUPPORT OF
DECLARATION AND WITHDRAW
1. First, Defendant, did not freely,
knowingly
and
intelligently
waive
his
constitutional rights. Indeed, of material issue, is
federal collateral and cross-action in the United
States District Court for the Southern District of
California (USDC SD Cal), in case 17-654, Davis
v. SDDA et. al., where the Defendant (Plaintiff
therein), has alleged six (6) claims (Doc. 72,
Amended Complaint) of his Constitutional rights
being violated by the prosecution (i.e. SODA and
employees thereof) under, a priori, the 4th and
8th Amendments, separately; and, secondarily,
the Due Process clauses of the 5th and 14th
Amendments. Defendant (Plaintiff therein), has
moved for Fed. R. Civ. P. 56 Partial Summary
Judgment (Doc. 77, May 29, 2018) on three (3) of
the six (6) claims, which remains pending in
federal court.
2. Second, Defendant has lodged relevant
USDC SD Cal, federal cross-action and collateral
attack with the Superior Court of California, San
Diego County, on June 7, 2018; which, on its own,
provides sufficient support, and is beyond clear
and convincing evidence, that these matters
between the prosecution and the Defendant are
far from being amicably resolved.
3. Third, Defendant was not aware of all
the consequences of the plea, also,, on its own,
grounds for the Court granting a request for
withdraw. For example, as the Defendant has not
been Sentenced (hearing scheduled June 7, 2018),
yet, Defendant posits that at any time before
Sentencing, a defendant can withdraw their
Plea(s), as there is no way to know, with certainty

llj
and precision, as required via full disclosure,
precisely what the terms of the Plea will be.
Further, thi shall include suggestions made by
the San Diego County Probation Department in
its report, which the Defendant, contests as
having numerous falsehoods in it, as well as
terms and conditions themselves that are
unacceptable to the Defendant; and, that the
Defendant's counsel, professional law firm, Ronis
& Ronis (San Diego, CA), could not have known,
themselves, at the time that the Plea was
entered.
4. Fourth, Defendant was not advised of
any mandatory jail or prison term. However,
third parties, other than his defense have noted
that the One Million Dollar ($1,000,000) bail
threshold brings a mandatory sentencing with it;
which, may, or may not have been completed
while the Defendant was detained pre-trial, as,
separately, the Probation Report, suggests.
Irrespective, this is an unknown factor to each of
the Defendant and his criminal defense counsel,
until the actual Sentencing date.
5. Fifth, subsequent to release from custody
after April 23, 2018, Defendant has been made
aware that he will be ineligible for a California
Real Estate professional license given a felony
conviction. While the Defendant, has let his
California Real Estate Salesperson license lapse,
for certain reasons, including the notion that his
professional work was completed in the State of
Vermont in 2017; he, still desires to re-apply for
this license in California, or, as relevant, in
another state; where, a felony conviction prohibits
such licensing.

13
6. Sixth, Defendant entered the Plea
Bargain(s) on April 23, 2018, while being
prompted by the Court if he was threatened to
enter into them. On such day, before the Court,
he indicated orally, "not directly," and had
implied 'indirect' threats to his person and safety
therefrom.
Defendant has reported these threats to
federal authorities, and is not at liberty, to go into
detail in this proceeding regarding the nature of
such threats. Defendant also noted such specific
matter in USDC SD Cal, 17-654, Davis v. SDDA
et. al., Doc. 69 (April 26, 2018), which has been
lodged with the Court on June 7, 2018. Defendant
clearly did not enter into the Plea Bargain(s) on
April 23, 2018, freely and voluntarily.
7. Seventh, on April 23, 2018, Defendant
was asked if there were any special conditions to
him entering into the Plea Bargain(s) by the
Court; and, he indicated, "Yes," he was promised
an unconditional (operative word) return to his
Liberty; and, separately, returned on the same
day (April 23, 2018). Defendant had waited
several months for a Bail Review Motion, which
Hearing, was taken on and off calendar three (3)
or more times during this period without being
heard; and, whereby the Defendant was held on
an Excessive, and Punitive bail of One Million
Dollars ($1,000,000) after missing court on one of
two (I of 2) hearings on October I 0, 2017, for good
cause. Such matters are also referenced in USDC
SD Cal, Davis v. SDDA et. al., Doc. 69 (April 26,
2018). Once again, this is further evidence, that
the Defendant did not enter into the Plea
Bargain(s) of April 23, 2018, freely and
voluntarily. Further, and, separately, Defendant,

13j
as the Bail Review Motions were never filed,
could have grounds, on this alone, of the
ineffective assistance of counsel, a common legal
ground for filing a Motion to Withdraw a Plea
(failure to file and argue the appropriate motions)
8. Defendant notes that if you plead guilty
or no contest because you are threatened, coerced
or lured into doing so, the court should grant your
Motion to Withdraw a Plea. This is because
California law provides that guilty pleas must be
entered into freely and voluntarily. In People u.
Sandoval (2006) 140 Cal.App.4th 124, it holds, on
the long-established rule that "guilty pleas
obtained through 'coercion, terror, inducements',
subtle or blatant threats' are involuntary" ... and
are therefore unlawful. Once again, Defendant, as
one of several valid reasons for withdraw of the
Plea Bargains of April 23, 2018, notes that he was
induced to enter into such Pleas in order to regain
his pre-trial Liberty. Defendant made this very
clear before the Court o April 23, 2018.
9. California Penal Code 1018 PC - Motion
to Withdraw Guilty Plea - Defendant to plead in
person; refusal of certain pleas; change of plea;
corporate defendants; construction of section.
("Unless otherwise provided by law, every plea
shall be entered or withdrawn by the defendant
himself or herself in open court. No plea of guilty
of a felony for which the maximum punishment is
death, or life imprisonment without the
possibility of parole, shall be received from a
defendant who does not appear with counsel, nor
shall that plea be received without the consent of
the defendant's counsel. No plea of guilty of a
felony for which the maximum punishment is not
death or life imprisonment without the possibility

of parole shall be accepted from any defendant
who does not appear with counsel unless the
court shall first fully inform him or her of the
right to counsel and unless the court shall find
that the defendant understands the right to
counsel and freely waives it, and then only if the
defendant has expressly stated in open court, to
the court, that he or she does not wish to be
represented by counsel. On application of the
defendant at any time before judgment or within
six months after an order granting probation is
made if entry of judgment is suspended, the court
may, and in case of a defendant who appeared
without counsel at the time of the plea the court
shall, for a good cause shown, permit the plea of
guilty to be withdrawn and a plea of not guilty
substituted. Upon indictment or information
against a corporation a plea of guilty may be put
in by counsel. This section shall be liberally
construed to effect these objects and to promote
justice.")
CONCLUSION
10. Each one of these seven (7) reasons for
Withdraw of the Pleas, on their own accord, is
grounds for withdraw of the Pleas; while each
providing, clear and convincing evidence for such
withdraw. In totality, taken together, such is
more than sufficient for the withdraw of the Plea
Bargains.
11. Per Ca PC § 1018, the Court is to
"liberally construe" a Motion to Withdraw a Plea
by a defendant, such as the Defendant, has
brought forth, here today (June 7, 2018), in order
to "promote justice," and whereby, denial of such
forthright request and motion by the Defendant

15
in open court, would be a subjugation of his
rights, prima facie; and, also, separately,
premature given valid, open, federal collateral
attack and cross-action.
12. The legal standard for "clear and
convincing evidence," is, is it substantially more
than not that a defendant would have entered a
plea if all the facts had been known at the time of
the plea; once again, to be construed" liberally" in
favor of the defense. It is clear, prima facie, that
Defendant would not have entered into the Pleas
if he was at Liberty. Further, it is clear, prima
facie, that Defendant would not have entered into
the Pleas, if he had known all of the terms and
conditions of such Pleas, themselves, which
cannot be known, until such a party is formally
Sentenced; after, taking into consideration
unknown facts and factors consideration factors,
at the time a Plea is entered.
REQUEST FOR RELIEF
13. Good cause, showing, in multiple
capacities, the Defendant has withdrawn his Plea
Bargains of April 23, 2018; and, requests that the
Court formally acknowledge same in open court
on June 7, 2018; via Order, as required, returning
the matters to pre-trial in SCD266332.
14. Thereafter, in addition to withdraw of
the Plea Bargains of April 23, 2018, Defendant no
longer waives time with respect to the allegation
of Failure to Appear (SCD273043) (note:
Defendant is clearly engaged with the process of
the law, and not evading it, in any uncertain
capacity), and requests that the Court timely
schedule a Preliminary Hearing there upon in
SCD273043, moving to trial, timely thereafter, if

i<3
the defense should not be successful in dismissing
such matter at the Preliminary Hearing.
CERTIFICATION AND CLOSING
By signing below, I certify to the best of my
knowledge, information, and belief that this
Motions and accompaniments: (a) is not being
presented for an improper purpose, such as to
harass, cause unnecessary delay, or needlessly
increase the cost of litigation; (b) is supported by
existing law; (c) the factual contentions have
evidentiary support or, if specifically so identified,
will likely have evidentiary support after a
reasonable opportunity for further investigation
or discovery; this filing otherwise complies good
faith requirements.
DATED: June 7, 2018
Gavin B. Davis
Gavin B. Davis, Individually

Ik
Petitioner's Timely Facsimile to State of
California (SDDA) Withdrawing Plea, April
25, 2018
[State of California v. Gavin B. Davis],
SCD266332 and Associated Cases - Plea Rider A
GB Davis <gavinprivate96@gmail.com>
Wed, Apr 25, 2018 at 2:36 PM
To: "Trinh, Leonard" <leonard.trinh@sdcda.org>
Cc:
Summer.Stephan@sdcda.org,
"Manahan,
< george. manahan@
George
(USACAS)"
usdoj.gov>, "Christopher.combs" <christopher.
combs@ ic.fbi.gov>, "ronald.lenert" <ronald.lenert
@sdcounty.ca.gov>, jan <jan@ronisandronis.com>,
gvh <gvh@ ronisandronis.com>, jason <Jason
hk
<hk@tkflaw.com>,
@ronisandronis. com>
<pjhjrlaw@gmail.com>,
Patrick
Hennessey
<kristina.davis
@
Kristina
Davis
sduniontribune.com>
Mr. Leonard N. Trinh:
Please Note, the following, in part:
(1) On Monday, April 23, 2018, Mr. Gavin B.
Davis (Defendant in SCD266332, and associated
cases), appearing, horizontally (i..e Pro Per), with
Mr. Jan E. Ronis of attorneys, Ronis & Ronis,
entered a Plea Bargain(s) (Dept. 11, San Diego
County, Central, Criminal)
(2) Immediately prior to the beginning of such
proceeding (Dept. 11), Mr. Davis provided Mr.
APPENDIX K

2k
Ronis a copy of the attached Rider A to the Plea
Bargain; and discussed its contents, which Mr.
Ronis read, asking certain questions. Mr. Davis
requested that it be filed
(3) On Record on 4/23/18 (Dept. 11), Mr. Davis
was specifically asked if:
(a) he was threatened to take such Plea, he
indicated, not Directly, but alleges one or more
claims of being Indirectly Threatened to take
such Plea(s); and, separately,
(b) if any other Promises were made to enter into
the Plea, to which Mr. Davis answered, "Yes";
with respect to (b):
(i) the Judge inquired further and Mr. Davis
indicated that he was Promised as a condition of
Plea, that his unrestricted personal Liberty would
be returned; and, separately, returned on the
same day (i.e. 4/23/18) as the Plea(s), Court
Appearance (Dept. 11);
(ii) thereafter (i.e. after (b)(i)), the Judge clarified,
and inquired if that was the DA (i.e. you, in your
official capacity, despite Mr. Davis CA PC 1424,
stance, against, each of you, and separately the
SDDA, in favor of the CA AG) understanding;
and, whereby, you Confirmed that this was the
case, in an honest, and good faith capacity;
(iii) Mr. Davis went on record with, effectively,
paragraph 4, pg 2 of the attached Plea Rider A

3k

(4) In effect, without question/dispute, you (on
record orally), Agreed to the OR release of Mr.
Davis (despite a $1,000,000 bail from October
2017); Mr. Davis holds this as Evidentiary in
cross-action; and in these cases, as further
evidence of Vindictiveness (constructively), and
further grounds for each of federal cross-action,
and CA PC 1424, DQ of you;
(5) Mr. Davis has now been granted OR release at
his last two court appearances by the SDDA,
including on 4/23/18, as Agreed to by you (orally
on record)
(6) The San Diego County Sheriff, upon release on
the evening of 4/23/18, also Specifically, told Mr.
Davis that his release was "on his Own
Recognizance"
Please review CA PC 1319.5, with regard to OR
release. Mr. Davis has a Right, to pre-trial
release.
Mr. Davis withdraws his Plea, as stated to 3rd
Parties, already, and wishes to move back into
Pre-Trial with the Pitchess Motion, and a new CA
PC 1424, seeking your disqualification
Further, please Note, as it relates to USDC SD
Cal, 17-654, Davis v SDDA et al., an email was
sent to you, and the SDDA's attorney, Mr. Ronald
Lenert, earlier today, with this information:
"The Plaintiff, Mr. Gavin B. Davis, is filing an
Amended Complaint ("TAC") as Granted (Doc.
66), however, as the Plaintiff was being Denied

4k

Access to the Courts (Doc. 59, 63), while being
illegally Detained, pre-trial, against his 4th and
8th Amendment rights, a priori, and also
violating other rights (e.g. Due Process clauses of
the 5th and 14th Amendments), on Thursday,
April 26, 2018, the Plaintiff is Moving for a
reasonable Extension of the Start date of 30-day
period so Granted by the Court (Doc. 66) to file
such TAC, from February 26, 2018; to April 26,
and, therefore having such TAC "Outside Date"
be May 25, 2018."
Regards,
Gavin B. Davis
2 attachments
Plea Rider 1 of 2 42318.pdf
15K
Plea Rider 2 of 2 42318.pdf
30K

11
Petitioner’s Hand-written Plea Rider of
April 23, 2018
[the following was hand-written with a golf pencil
while detained pre-trial, sufficiently duplicated by
hand-writing, and provided to defense counsel to
submit with the April 23, 2018 Plea, which was
not done; and is highly evidentiary in multiple
regards]

Mr. Gavin B. Davis has entered
1.
certain form documents regarding a Plea Bargain,
with his attorney Mr. Jan E. Ronis, of Ronis &
Ronis (San Diego), on Friday, April 20, 2018
on
conversations
and
written
based
correspondence with Deputy District Attorney
(DDA), Mr. Leonard Nyugen Trinh, of the San
Diego County District Attorney (SDDA). This
document serves as an official rider (“Rider A”) to
such Plea(s).
entered
2.
Rider
A
is
the
contemporaneously with the Plea(s)
documents are inseparable (i.e. they run together)
3.
The
Plea(s)
are
conditioned,
unequivocally, on Rider A.
4.
Rider A, stipulates that, Mr. Gavin
B. Davis will be released on the same day as the
Plea(s) are entered (intended as Monday, April
23, 2018), and his liberty returned, or the Plea(s),
in their entirety will be null and void therefore
necessitating new documentation, prima facie.
5.
In the alternative, should Rider A
not be accepted for any reason, Mr. Gavin B.
Davis, and counsel, so move to re-schedule the
prior ‘Bail Review Hearing’ by right in forty-eight
APPENDIX L

i.

21
(48) hours, if feasible and no longer than five (5)
days, by statutory authority.
Gavin B. Davis 4/22/18
Defendant
Gavin B. Davis
Defense Attorney
Mr. Jan E. Ronis, esq.
Prosecution

i

